<html>
<title> - ANIMALS IN DISASTERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                          ANIMALS IN DISASTERS

=======================================================================

                                (116-54)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-576 PDF             WASHINGTON : 2020                              
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

     DINA TITUS, Nevada, Chair
MARK MEADOWS, North Carolina         DEBBIE MUCARSEL-POWELL, Florida
GARY J. PALMER, Alabama              SHARICE DAVIDS, Kansas
JENNIFFER GONZALEZ-COLON,            ELEANOR HOLMES NORTON,
  Puerto Rico                          District of Columbia
CAROL D. MILLER, West Virginia       HENRY C. ``HANK'' JOHNSON, Jr., 
GREG PENCE, Indiana                  Georgia
SAM GRAVES, Missouri (Ex Officio)    JOHN GARAMENDI, California
                                     ANTHONY G. BROWN, Maryland
                                     LIZZIE FLETCHER, Texas, Vice Chair
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)
                                     




                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chairwoman, Subcommittee on Economic Development, 
  Public Buildings, and Emergency Management:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Mark Meadows, a Representative in Congress from the State of 
  North Carolina, and Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure, prepared statement.............................    33
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    33

                               WITNESSES

Wesley T. Bissett, D.V.M., Ph.D., Director, Texas A&M Veterinary 
  Emergency Team, Texas A&M College of Veterinary Medicine and 
  Biomedical Sciences:

    Oral statement...............................................     5
    Prepared statement...........................................     7
R. Douglas Meckes, D.V.M., State Veterinarian, North Carolina 
  Department of Agriculture and Consumer Services:

    Oral statement...............................................    11
    Prepared statement...........................................    13
Teresa MacPherson, Canine Search Specialist, Fire and Rescue 
  Department/Virginia Task Force 1, Fairfax County, Virginia, 
  oral statement \1\.............................................    16
Richard Patch, Vice President, Federal Affairs, American Society 
  for the Prevention of Cruelty to Animals:

    Oral statement...............................................    18
    Prepared statement...........................................    19

                       SUBMISSIONS FOR THE RECORD

Statement of the Consortium for Citizens with Disabilities 
  Emergency Management Task Force, Submitted for the Record by 
  Hon. Dina Titus................................................    34

----------
\1\ Ms. MacPherson delivered an oral statement but did not submit a 
prepared statement.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            February 7, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:  LStaff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:      LSubcommittee hearing on ``Animals in Disasters''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Wednesday, February 12, 
2020, at 10:00 a.m. in 2167 Rayburn House Office Building, to 
receive testimony on ``Animals in Disasters.'' At the hearing, 
Members will receive testimony regarding several matters 
concerning animals in disasters. The Subcommittee will hear 
from the American Society for the Prevention of Cruelty to 
Animals; the North Carolina Department of Agriculture and 
Consumer Services; the Texas A&M University Veterinary 
Emergency Team; and Fairfax County, Virginia's Fire & Rescue 
Department, the sponsoring agency of Virginia Task Force 1, a 
member team of the Federal Emergency Management Agency's (FEMA) 
Urban Search & Rescue System.

                               BACKGROUND

    The Subcommittee has conducted significant oversight of 
FEMA for several years, following an increase in the volume of 
Presidentially-declared disasters and emergencies.\1\ 
Additionally, we have observed an increase in the severity of 
losses from disasters, increasing Federal spending to recover 
from costly events, and sometimes an increase in the scale of 
these hazard events.\2\
---------------------------------------------------------------------------
    \1\ https://www.fema.gov/disasters/year.
    \2\ Munich Re (2012). ``Severe weather in North America--Perils 
Risk Insurance.'' Munich, Germany: Muchener Ruckversicherungs-
Gesellschaft.
---------------------------------------------------------------------------
    Animals and veterinary issues are often overlooked when 
examining the full cycle of emergency management--planning, 
preparedness, response, recovery, and mitigation. However, in 
the wake of recent disasters, there are clear challenges--for 
first responders and their working dogs, individuals and 
families and their domesticated animals, and farmers and their 
livestock--which go beyond existing statutory considerations 
and Federal assistance.
    Under the Americans With Disabilities Act (ADA), State and 
local governments, businesses, and nonprofit organizations that 
serve the public generally must allow service animals to 
accompany people with disabilities in all areas of the facility 
where the public is normally allowed to go.\3\
---------------------------------------------------------------------------
    \3\ U.S. Department of Justice, Civil Rights Division, Disability 
Rights Section, ``ADA Requirements--Service Animals.'' Available at 
https://www.ada.gov/service_animals_2010.pdf.
---------------------------------------------------------------------------

FEDERAL ASSISTANCE RELATED TO ANIMALS IN DISASTERS

FEMA--SERVICE ANIMALS AND PETS

    The Robert T. Stafford Disaster Relief and Emergency 
Assistance Act , as amended, mentions pets and service animals 
four times.\4\ These references reflect statutory changes 
resulting from the Post-Katrina Emergency Management Reform Act 
(PKEMRA, P.L. 109-295) and the Pets Evacuation and 
Transportation Standards Act of 2006 (PETS Act, P.L. 109-308).
---------------------------------------------------------------------------
    \4\ Stafford Act (42 U.S.C. 5121 et seq.) , Sec. 403(3)(J), Sec. 
611(e)(4), Sec. 611(j)(2), and Sec. 613(g). Available at http://bit.ly/
FEMA-Stafford.
---------------------------------------------------------------------------
    Post-Katrina examinations of the disaster survivor 
population indicated that 44% of those who failed to evacuate 
did so because they did not want to leave behind their pets.\5\ 
Americans treat their pets as family members--in 2018, pet 
owners spent $72.56 billion dollars on pet-related 
expenditures, nearly doubling what was spent in 2005, when 
Hurricanes Katrina, Rita, and Wilma all made landfall.\6\ 
Hurricanes Katrina, Rita, and Wilma were amongst the most 
deadly, costly, devastating storms to date.\7\
---------------------------------------------------------------------------
    \5\ Fritz Institute, ``Hurricane Katrina: Perceptions of the 
Affected.'' Available at http://www.fritzinstitute.org/PDFs/findings/
Hurricanekatrina_Perceptions.pdf.
    \6\ American Pet Products Association. ``Pet Industry Market Size & 
Ownership Statistics,'' Available at https://
www.americanpetproducts.org/press_industrytrends.asp.
    \7\ U.S. Department of Commerce, National Oceanic and Atmospheric 
Administration, National Hurricane Center, ``Costliest U.S. tropical 
cyclones tables update.'' Available at https://www.nhc.noaa.gov/news/
UpdatedCostliest.pdf.
---------------------------------------------------------------------------
    PKEMRA and PETS transformed emergency management at the 
State and local levels, allowing not only for advance planning 
for evacuation plans, sheltering, and food and water for pets 
and service animals, but also for Federal cost-share assistance 
to cover related execution of these plans. Since enactment of 
these laws, many communities have been able to plan better and 
ensure that when those in harm's way are instructed to 
evacuate, local shelters are appropriately equipped to 
accommodate pets and service animals, as well.
    In recent disaster events, FEMA and local emergency 
managers have relied on voluntary agencies and organizations to 
assist with both emergency veterinary services and relocation 
of thousands of evacuated and surrendered animals.\8\ While 
many of these animals were reunited with their families 
following the initial disaster, there are hundreds that were 
not. There are currently no Federal requirements when it comes 
to consistent tracking of pet reunifications following 
disaster.
---------------------------------------------------------------------------
    \8\ Domesticpreparedness.com, ``Animal Relocation After Disaster--
Four Cases in 2017.'' Available at https://
www.domesticpreparedness.com/resilience/animal-relocation-after-
disaster-four-cases-in-2017/.
---------------------------------------------------------------------------
    Section 1218 of the Disaster Recovery Reform Act (DRRA, 
Division D of P.L. 115-254) authorized the establishment of one 
or more veterinary emergency teams at accredited colleges of 
veterinary medicine. The intent behind Sec. 1218 was for the 
veterinary team, or teams, to care for canine search teams, 
companion animals, service animals, livestock, and other 
animals; to recruit, train, and certify veterinary 
professionals, including veterinary students, regarding 
emergency response; to assist State governments, Indian tribal 
governments, local governments, and nonprofit organizations in 
emergency planning for animal rescue and care; and to 
coordinate with other Federal, State, local, and Indian tribal 
governments, veterinary and health care professionals, and 
volunteers. However, with regards to Section 1218, ``FEMA 
determined that this authority is outside the scope of FEMA's 
mission and duplicates capabilities already provided by HHS and 
USDA.'' \9\ The experiences of existing non-Federal veterinary 
teams active in recent disasters provide evidence that 
additional Federal resources are needed in this area.
---------------------------------------------------------------------------
    \9\ FEMA DRRA Implementation Snapshot dated July 1, 2019 and 
provided to the Committee.
---------------------------------------------------------------------------

FEMA--URBAN SEARCH AND RESCUE SYSTEM

    First established following the 1989 Loma Prieta 
earthquake,\10\ and formally authorized in PKEMRA, FEMA manages 
a National Urban Search And Rescue (USAR) System, comprised of 
28 task forces located across the continental United 
States.\11\ In the event of an emergency or disaster, FEMA can 
deploy the three closest task forces within six hours of 
notification and additional teams as needed.\12\
---------------------------------------------------------------------------
    \10\ The Federal Response to Hurricane Katrina: Lessons Learned, 
The White House (Feb. 2006), available at http://www.floods.org/PDF/
Katrina_Lessons_Learned_0206.pdf.
    \11\ FEMA, National Urban Search & Rescue Response System: Task 
Force Locations, available at http://www.fema.gov/task-force-locations.
    \12\ Federal Emergency Management Agency, National Urban Search and 
Rescue Response System Operations Manual, (September 2012), available 
at http://www.usarcd.org/forms/manuals/Operations%20Manual%2012-
001.pdf.
---------------------------------------------------------------------------
    These task force teams are comprised of career and 
volunteer first responders, including firefighters, engineers, 
medical professionals, and canine/handler teams with 
specialized skillsets and training.\13\ Urban search and rescue 
task forces support State and local emergency response efforts 
by conducting physical search and rescue operations; providing 
emergency medical care; assessing damage and providing feedback 
to local, State, and Federal officials; assessing and shutting 
off utilities; surveying and evaluating hazardous material 
threats; providing structural and hazard evaluations; 
stabilizing damaged structures; and carrying out search and 
rescue operations in a water environment.\14\
---------------------------------------------------------------------------
    \13\ U.S. Government Accountability Office, GAO-16-87, Disaster 
Response: FEMA Has Made Progress Implementing Key Programs, but 
Opportunities for Improvement Exist 5-6 (2016).
    \14\ FEMA, Urban Search & Rescue Participants, available at https:/
/www.fema.gov/urban-search-rescue-participants.
---------------------------------------------------------------------------
    The canine/handler teams of the national USAR System, as 
well as the non-federal USAR teams, are currently not 
guaranteed protections like those for service animals when it 
comes to their commercial travel, lodging, and dining services 
while activated.\15\ The Committee has heard reports that this 
lack of parity has resulted in challenges for some Federal 
teams, but also for local teams serving under Emergency 
Management Assistance Compact (EMAC) activations.
---------------------------------------------------------------------------
    \15\ Department of Justice, ``Nondiscrimination on the Basis of 
Disability in State and Local Government Services'' 75 Fed. Reg. 56164 
(September 15, 2010). Available at https://www.govinfo.gov/content/pkg/
FR-2010-09-15/pdf/2010-21821.pdf.
---------------------------------------------------------------------------

U.S. DEPARTMENT OF AGRICULTURE (USDA)--CATTLE, LIVESTOCK, AND POULTRY

    Animals impacted in disasters not only include pets, 
companion animals, and service animals, but also cattle, 
livestock, and poultry critical to farming communities. The 
potential impacts related to managing livestock in the planning 
for, response to, and recovery from disasters can be 
significant given the potential impact on State, local, tribal, 
and territorial economies. For example, agriculture, food, and 
related industries represented 5.4% of the Nation's gross 
domestic product or $1.053 trillion in 2017.\16\ Cash receipts 
for animals and related products in 2018 was over $176 
billion.\17\ More broadly, the impact could include the 
Nation's food supply depending on the severity of the disaster.
---------------------------------------------------------------------------
    \16\ USDA, Economic Research Service, using data from U.S. 
Department of Commerce, Bureau of Economic Analysis, Value Added by 
Industry series. Available at https://www.ers.usda.gov/data-products/
ag-and-food-statistics-charting-the-essentials/ag-and-food-sectors-and-
the-economy/.
    \17\ USDA, Economic Research Service, Farm Income and Wealth 
Statistics, November 27, 2019.
---------------------------------------------------------------------------
    As with other animals, planning for livestock in disasters 
includes evacuation plans, sheltering, and food and water.\18\ 
However, preparedness for and response to impacts on livestock 
has its own unique challenges. For example, mitigating against 
and responding to large scale animal mortality post-disaster is 
critical to public health and safety. Livestock, cattle, 
poultry, and other large animals, in the context of farms and 
agriculture, typically involve a high number of animals that 
must be managed in developing preparedness and response plans. 
For example, while small pets may be more easily accommodated 
during evacuations, the solutions for herds of cattle may be to 
shelter in place.
---------------------------------------------------------------------------
    \18\ ``Do You Have a plan for Your Livestock Should Disaster 
Strike?,'' USDA Preparedness Factsheet, October 2016; See also ``Large 
animals and livestock in disasters,'' American Veterinary Medical 
Association. https://www.avma.org/resources/pet-owners/emergencycare/
large-animals-and-livestock-disasters.
---------------------------------------------------------------------------
    There are a number of disaster assistance programs 
available through the USDA such as: the Livestock Forage 
Disaster Program (LFP); the Livestock Indemnity Program (LIP); 
the Emergency Assistance for Livestock, Honeybees and Farm-
Raised Fish Program (ELAP); and the Emergency Loan Program 
(EM). The LFP, LIP, and ELAP were all first authorized by the 
2008 Farm Bill and reauthorized in 2018.\19\
---------------------------------------------------------------------------
    \19\ P.L. 110-246; see also P.L. 115-334.
---------------------------------------------------------------------------
    The LFP provides compensation to eligible livestock 
producers that have suffered grazing losses due to drought or 
fire on land that is native or improved pastureland with 
permanent vegetative cover or that is planted specifically for 
grazing.\20\ LFP payments for drought are equal to 60 percent 
of the monthly feed cost for up to 5 months, depending upon the 
severity of the drought. LFP payments for fire on Federally 
managed rangeland are equal to 50 percent of the monthly feed 
cost for the number of days the producer is prohibited from 
grazing the managed rangeland, not to exceed 180 calendar 
days.\21\ There is a $125,000 annual payment limit for payments 
under this program.\22\ LFP activity in FY 2018 included 89,332 
payments totaling $487,454,684.\23\
---------------------------------------------------------------------------
    \20\ USDA, Livestock Forage Disaster Program Factsheet, July 2019. 
Available at https://www.fsa.usda.gov/Assets/USDA-FSA-Public/usdafiles/
FactSheets/2019/livestock_forage_
disaster_program-fact_%20sheet_july-2019.pdf/.
    \21\ Id.
    \22\ Id.
    \23\ President's FY2020 Budget Request, USDA Farm Service Agency 
Congressional Justification. Available at https://www.obpa.usda.gov/
24fsa2020notes.pdf.
---------------------------------------------------------------------------
    The LIP provides benefits to livestock producers for 
livestock deaths in excess of normal mortality caused by 
adverse weather or by attacks by animals reintroduced into the 
wild by the Federal government. LIP payments are equal to 75 
percent of the average fair market value of the livestock. It 
also provides benefits for the sale of animals at a reduced 
price if the sale occurred due to injury that was a direct 
result of an eligible adverse weather event or due to an attack 
by an animal reintroduced into the wild. There is no longer a 
payment limit on assistance provided under this program. During 
FY 2018, LIP activity included 4,792 payments totaling 
$36,615,003.\24\
---------------------------------------------------------------------------
    \24\ Id.
---------------------------------------------------------------------------
    The ELAP provides emergency assistance to eligible 
producers of livestock, honeybees and farm-raised fish for 
losses due to disease (including cattle tick fever), adverse 
weather, or other conditions, such as blizzards and wildfires, 
not covered by LFP and LIP. As with LIP, there is no longer a 
payment limit on assistance provided under this program. During 
FY 2018 ELAP activity included 3,770 payments totaling 
$47,064,049.\25\
---------------------------------------------------------------------------
    \25\ Id.
---------------------------------------------------------------------------
    While these assistance programs are available through USDA, 
there remain gaps in planning and assistance for animals in 
disasters.\26\
---------------------------------------------------------------------------
    \26\ Heath SE, Linnabary RD, ``Challenges of Managing Animals in 
Disasters in the U.S. Animals,'' Published 2015 Mar 26, US National 
Library of Medicine, National Institutes of Health.
---------------------------------------------------------------------------

USDA--ANIMAL WELFARE ACT

    The Animal Welfare Act (AWA, P.L. 89-544) was signed into 
law in 1966. It is the only Federal law in the United States 
that regulates the treatment of animals in research, 
exhibition, transport, and by dealers. Other laws, policies, 
and guidelines may include additional species coverage or 
specifications for animal care and use, but all refer to the 
AWA as the minimum acceptable standard.\27\
---------------------------------------------------------------------------
    \27\ ``Animal Welfare Act,'' USDA National Agriculture Library, 
available at https://www.nal.usda.gov/awic/animal-welfare-act.
---------------------------------------------------------------------------
    Under the AWA, certain facilities are Federally licensed. 
There is currently no Federal requirement for facilities 
holding an AWA license to have emergency or disaster plans in 
place. This puts animals in these facilities--and the 
responders who take action to rescue them--at particular risk. 
During both Hurricane Katrina and Superstorm Sandy, thousands 
of animals in AWA-licensed facilities perished due to 
flood.\28\
---------------------------------------------------------------------------
    \28\ Slate, ``Sandy's Toll on Medical Research.'' Available at 
https://slate.com/technology/2012/11/animals-drowned-in-sandy-nyu-
medical-research-is-set-back-years-by-dead-laboratory-mice.html; see 
also The Hill, ``The PREPARED Act will protect vulnerable animals when 
disaster strikes,'' available at https://thehill.com/blogs/congress-
blog/politics/462453-the-prepared-act-will-protect-vulnerable-animals-
when-disaster.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet> LWesley T. Bissett, DVM, PhD, Director, Veterinary 
Emergency Team, College of Veterinary Medicine and Biomedical 
Sciences, Texas A&M University
    <bullet> LR. Douglas Meckes, DVM, State Veterinarian, 
Department of Agriculture and Consumer Services, State of North 
Carolina
    <bullet> LTeresa MacPherson, Canine Handler, Fire and 
Rescue Department/Virginia Task Force 1, Fairfax County, VA
    <bullet> LRichard Patch, Vice President, Federal Affairs, 
American Society for the Prevention of Cruelty to Animals 
(ASPCA)


                          ANIMALS IN DISASTERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2020

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room 2167, Rayburn House Office Building, Hon. Dina Titus 
(Chairwoman of the subcommittee) presiding.
    Ms. Titus. We will call this hearing to order.
    I ask unanimous consent that the chair be authorized to 
declare recesses during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    I guess that means that Beau and Remy are allowed to stay.
    [Laughter.]
    Ms. Titus. So thank you two for coming.
    This morning we are going to be discussing an issue of 
great importance to me, and I think to the country, when it 
comes to emergency preparedness and response, and that is 
animal welfare in disasters.
    Eighty-five million families in the United States have at 
least one pet. That is nearly 67 percent of all households in 
the country. These pets, these animals, are like members of our 
family, and their safety has a major impact on how people 
prepare for, respond to, and recover from disasters.
    [Slides shown during Hon. Titus' opening statement.]
    Ms. Titus. The issue of caring for animals in emergencies 
is not a new concern. In fact, we can look to many of the 
world's oldest cultures and religions for the first evidence of 
emergency planning for animals in disasters. In Genesis, we 
find the story of Noah and the great flood. In it God directs 
Noah to gather up two of each animal onto the ark to save them 
from the impending flood.
    So, whether it is a family cat, a service animal, the 
cattle on your ranch, or a working dog alongside a first 
responder, when we take care of these animals during a 
disaster, it makes it easier for people to be willing to 
evacuate, and then later to begin the process of recovery.
    And speaking of evacuation, in fact there was a study done 
after Katrina that showed, of those who failed to evacuate, 44 
percent stated that it was because they didn't want to leave 
their pets behind.
    So today we will explore existing authorities in the 
Stafford Act that help guide FEMA's work in this space, and the 
assistance it provides to States and localities. We will 
examine gaps in Federal emergency management policy that have 
led to families' separation from their pets, and the deaths of 
tens of thousands of animals.
    We will also hear from groups providing services outside of 
the Stafford framework, and hear about opportunities where the 
Federal Government could promote animal welfare and help 
alleviate these separations and losses.
    I will note that, in the recently passed Disaster Recovery 
Reform Act, known as DRRA, we included language to establish 
veterinary response teams, utilizing the expertise of our 
Nation's unsurpassed higher education veterinary programs.
    The provision, section 1218, is the next step in a 
progression of public policy developed in response to animal-
related challenges dating back to the early 1990s and Hurricane 
Andrew. They have, unfortunately, continued to be an issue in 
large- and small-scale events, such as Hurricane Katrina, Rita, 
Wilma, Florence, Harvey, Irma, Maria, and Michael, Superstorm 
Sandy, and the recent California wildfires.
    However, much to my dismay, FEMA has so far chosen to 
ignore this provision. During the last 5 years alone, our 
Nation has experienced nearly 500 Presidentially declared 
disaster events, including, as I have listed, significant 
hurricanes, wildfires, floods, and earthquakes. In each of 
these instances, we have repeatedly seen the challenges that 
come with the Federal response to disaster when tens of 
thousands were rescued and evacuated, some reunited, but some 
lost.
    Prussian-German philosopher Kant famously said, ``We can 
judge the heart of a man by his treatment of animals.'' So let 
us be judged today by what we can accomplish to protect animals 
in disasters.
    So today's hearing will provide this subcommittee with an 
opportunity to examine whether our Federal emergency management 
policies measure up to our Nation's affection for our pets and 
our flocks.
    I want to thank our witnesses who are here today; we look 
forward to your discussion. And I also thank other animal 
groups, including the Humane Society, that have helped us to 
work on this issue.
    [Ms. Titus' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
  from the State of Nevada, and Chairwoman, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    This morning we are discussing an issue of great importance when it 
comes to emergency preparedness and response and that is animal welfare 
in disasters.
    Eighty-five million families in the United States have at least one 
pet.
    That's nearly 67 percent of all households in this country.
    These animals are members of our families, and their safety has a 
major impact on how people prepare for, respond to, and recover from 
disasters.
    The issue of caring for animals in emergencies is not a new 
concern.
    In fact, we can look to many of the world's oldest cultures and 
religions for the first evidence of emergency planning for animals in 
disasters.
    In Genesis, we find the story of Noah and the Great Flood. In it, 
God directs Noah to gather two of each animal on the Ark to save them 
from the impending flood.
    Whether it is a family cat, a service animal, the cattle on your 
ranch, or a working dog alongside a first responder, when we take care 
of animals during a disaster, it makes it easier for people to be 
willing to evacuate and then later to begin the process of recovery.
    Today we will explore existing authorities in the Stafford Act that 
help guide FEMA's work in this space and the assistance it provides to 
states and localities.
    We'll examine gaps in federal emergency management policy that have 
led to family separation from their pets and the deaths of tens of 
thousands of animals.
    We will also hear from groups providing services outside of the 
Stafford framework, and hear about opportunities where the federal 
government could promote animal welfare and help alleviate these 
separations and losses.
    I'll note that in the recently passed Disaster Recovery and Reform 
Act, also known as DRRA, we included language to establish veterinary 
response teams utilizing the expertise of our nation's unsurpassed 
higher-ed veterinary programs.
    This provision--Section 1218--is the next step in a progression of 
public policy developed in response to animal-related challenges dating 
back to the early 1990s and Hurricane Andrew.
    They have unfortunately continued to be an issue in small- and 
large-scale events such as Hurricanes Katrina, Rita, Wilma, Florence, 
Harvey, Irma, Maria, and Michael; Superstorm Sandy; and the recent 
California wildfires.
    Much to my dismay, FEMA has so far chosen to ignore this important 
provision.
    During the last five years alone, our nation has experienced nearly 
500 Presidentially-declared disaster events, including significant 
hurricanes, wildfires, floods, and earthquakes.
    In each of these instances, we have repeatedly seen challenges that 
come with a federal response to disasters, when tens of thousands of 
animals were rescued, evacuated, and--hopefully--reunited with their 
owners.
    Prussian-German philosopher Immanuel Kant famously said, ``We can 
judge the heart of a man by his treatment of animals.''
    Today's hearing provides the Subcommittee with an opportunity to 
examine whether our Federal emergency management policies measure up to 
our nation's affection for our pets and our flocks.
    I want to thank our witnesses for being here today and look forward 
to today's discussion.

    Ms. Titus. I would now like to call on the ranking member 
of the subcommittee, Mr. Meadows, for his opening statement.
    Mr. Meadows. Thank you, Chairwoman Titus. Thank you for 
your leadership. And I thank all the witnesses for being here 
today.
    Obviously, examining the issues of animals in disasters is 
not only an important topic for preparing and responding to 
disasters, but, as we all know, animals play a unique role in 
terms of the resources following a disaster: aiding in search 
and rescue, serving people with disabilities, necessary to 
individuals' livelihood in the agricultural community, or, even 
as many Americans feel today, pets are truly part and members 
of their family.
    All of those variations of animals in disaster situations 
present unique challenges and opportunities for the Federal 
Government aiding in all phases of disaster response and 
recovery.
    Particularly today I am pleased to have a witness from my 
home State of North Carolina, Dr. Meckes, who serves as the 
State veterinarian.
    Thank you for being here. You know very well what it is 
like to deal with these issues, having a number of storms hit 
North Carolina. And so, whether it is from small household pets 
to larger animals in the agricultural community, they provide 
unique challenges. So I look forward to hearing your expertise 
today.
    I also want to go a little bit further, because we are 
going to focus on the critical issue of saving lives and 
helping communities rebuild smarter and faster after a 
disaster. Addressing these challenges related to animals is 
also important.
    The canines and their handlers in the search-and-rescue 
teams are critical to saving lives. My son actually has trained 
a chocolate lab that is actually not only a companion, but part 
of the family, and they travel everywhere together. And you can 
mess with the dad, but you can't mess with his dog. So ensuring 
their proper care while engaged in search-and-rescue missions 
also is critically important so that we don't put them in 
harm's way.
    In rural communities, as I mentioned earlier, livestock is 
critical to State and local economies, and ultimately to the 
Nation's food supply. Effective preparedness and planning for 
response and recovery must include how we plan for and manage 
animals in these areas hit by disasters. I know that in the 
hurricane in North Carolina we were having to bring in boxcars 
to try to move some of the livestock that potentially was in 
harm's way.
    And so I look forward to hearing from all of you today as 
we look at this issue and how we can address best practices, 
where we can do better, and I thank you all for being here, and 
I yield back to the chairwoman.
    [Mr. Meadows' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Mark Meadows, a Representative in Congress 
 from the State of North Carolina, and Ranking Member, Subcommittee on 
    Economic Development, Public Buildings, and Emergency Management
    Examining the issue of animals in disasters is an important topic 
in preparing for and responding to disasters.
    Animals play unique roles as they can be resources following a 
disaster: aiding in search and rescue, serving people with 
disabilities, necessary to individuals' livelihood in the agricultural 
communities, or even as many Americans feel today--pets that are truly 
members of the family. All of those variations of animals in disaster 
situations present unique challenges and opportunities for the federal 
government aiding in all phases of disaster response and recovery.
    Particularly today, I am pleased to have a witness from my home 
state of North Carolina, Dr. Meckes, who serves as the State 
Veterinarian. I look forward to hearing about how North Carolina has 
handled animal response during the several disasters that have hit our 
state over the past few years.
    While we focus on the critical issues of saving lives and helping 
communities rebuild smarter and faster after a disaster, addressing the 
challenges related to animals is important.
    The canines and their handlers in our search and rescue teams are 
critical to saving lives. Ensuring their proper care while engaged in 
search and rescue missions ensures those operations are effective.
    In rural communities, livestock is critical to the state and local 
economies and, ultimately, to the Nation's food supply.
    Effective preparedness and planning for response and recovery must 
include how we plan for and manage animals in areas hit by disaster. I 
look forward to hearing from our witnesses today about best practices 
and where we can do better.

    Ms. Titus. Thank you, Mr. Meadows. Other Members will come 
and go, but for now we will just move on to our witnesses. And 
I would like to welcome you all and thank you for being here. 
You are truly the experts in this area, and we look forward to 
your testimony.
    Dr. Wesley Bissett, who is here, he is the director of the 
veterinary emergency team, College of Veterinary Medicine at 
Texas A&M.
    Dr. Douglas Meckes, the State veterinarian for the 
Department of Agriculture in the State of North Carolina.
    Teresa MacPherson, who is a canine search specialist with 
the Fire and Rescue Department, Virginia Task Force 1, Fairfax 
County, Virginia.
    And Mr. Richard Patch, who is vice president, Federal 
affairs, for the American Society for the Prevention of Cruelty 
to Animals.
    Thank you very much for being here today. We all look 
forward to hearing what you have to advise us.
    And without objection, our witnesses' full statements will 
be included in the record.
    Since your written testimony has already been made a part 
of the record, the subcommittee requests that you limit your 
testimony to 5 minutes.
    So we will proceed with Dr. Bissett.

TESTIMONY OF WESLEY T. BISSETT, D.V.M., Ph.D., DIRECTOR, TEXAS 
A&M VETERINARY EMERGENCY TEAM, TEXAS A&M COLLEGE OF VETERINARY 
 MEDICINE AND BIOMEDICAL SCIENCES; R. DOUGLAS MECKES, D.V.M., 
 STATE VETERINARIAN, NORTH CAROLINA DEPARTMENT OF AGRICULTURE 
    AND CONSUMER SERVICES; TERESA MacPHERSON, CANINE SEARCH 
 SPECIALIST, FIRE AND RESCUE DEPARTMENT/VIRGINIA TASK FORCE 1, 
 FAIRFAX COUNTY, VIRGINIA; AND RICHARD PATCH, VICE PRESIDENT, 
FEDERAL AFFAIRS, AMERICAN SOCIETY FOR THE PREVENTION OF CRUELTY 
                           TO ANIMALS

    Dr. Bissett. Chairwoman Titus, Ranking Member Meadows, Vice 
Chairwoman Fletcher, and members of the subcommittee, thank you 
for inviting me to testify regarding the impact of disasters on 
animals. My name is Dr. Wesley Bissett, and I am the director 
of the Texas A&M Veterinary Emergency Team at the Texas A&M 
College of Veterinary Medicine.
    All too often disaster impacts on animals and their owners 
are seen as separate issues. But, as you will hear from my 
testimony, they are one and the same, and must be looked at in 
that manner. Human health, well-being, and safety is always the 
highest priority in disaster settings. And I am not here to 
testify that animals should be given equal priority. The 
reality is, however, that people will factor in their animals 
when deciding how to respond to a threat, and many will make 
decisions that are not in their best interests if their animals 
are not provided for.
    And an example is provided by a woman from the coast of 
Texas who refused to evacuate prior to Hurricane Ike. She had 
had a knee replacement, lived in an elevated house, and had an 
elderly dog, could not carry it down the flight of stairs. She 
did not know that help was available. And unfortunately, she 
was identified by the serial number on her knee replacement 
hardware across the bay, and about 6 miles from her home. That 
was shared with me by an official in Chambers County. That is 
the county in which her body was found.
    As the director of the Texas A&M VET, I have experienced 
just how intertwined the human and animal condition is. Through 
our response to numerous disasters in Texas, and to the Camp 
wildfire in Paradise, California, we have experienced those 
times when victims are reunited with their animals. These are 
powerful interactions that I believe provide one of the first 
opportunities for their recovery. A common phrase that I hear 
during these interactions is, ``Doc, everything is going to be 
OK.'' It is often the first time these people tell their 
stories, and realize that they can indeed take a step toward a 
renewed future. So it is a matter of hope.
    I would further argue that the highest priority--human 
health, well-being, and safety--can never be fully addressed 
without addressing the animal condition.
    Agricultural animals have the additional distinction of 
also being economically important species. Animal ag losses for 
Hurricane Harvey in Texas was estimated at $93 million. That is 
a huge number at the State level. But think, what does it mean 
on a finer scale? A family farm's losses reflect the loss of 
years of hard work, and threaten their ability to recover their 
operations and feed their families. This escalates, as you have 
multiple producers that are impacted, particularly in 
communities whose economic basis is derived from the 
agricultural sector. It threatens recovery at the community 
level, and persists well beyond the time when all the debris 
has been cleared.
    Solving these problems is complex and, quite frankly, 
beyond what many local and even State governments can 
accomplish.
    I would also argue that the current approach to Federal 
level support, particularly in the veterinary medical arena, is 
insufficient, as well.
    The Texas A&M VET was formed in 2010, with the charge of 
providing a holistic approach to the animal problem in our 
State. We have fulfilled this charge through working in four 
domains grounded in veterinary medicine.
    First, we provide direct support for development of local-
level, animal-focused emergency plans, and also by developing 
mitigating strategies for animal-based entities.
    Second, we provide veterinary medical support to local 
communities in response to natural and man-made disasters.
    Third, our team supports Texas Task Force 1 and other 
members of the USAR network that train in and are deployed to 
Texas. We have an aggressive approach for dealing with search-
and-rescue dog issues that is based in prevention and recovery. 
Texas Task Force 1 estimates that we increase the operational 
time of search dogs by at least 50 percent. And that is 
significant, because that is also hope for the person that is 
lost.
    Fourth, our senior vet students participate in all of our 
activities. This augments immediate operational capacities, and 
also builds capacity for the future. The Disaster Recovery 
Reform Act authorized FEMA to establish national veterinary 
emergency teams at colleges of veterinary medicine. This 
provides an opportunity for teams like ours to be an immediate 
Federal resource, and for new teams to be built.
    The programs I have described above represent a significant 
advancement over veterinary medical disaster response assets 
that are currently in the Federal inventory.
    In closing, I would like to thank you again for inviting me 
to testify. I appreciate the committee's commitment to ensuring 
that the highest priority, human health, well-being and safety, 
is fully addressed by also addressing the animal issue.
    [Dr. Bissett's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Wesley T. Bissett, D.V.M., Ph.D., Director, Texas 
A&M Veterinary Emergency Team, Texas A&M College of Veterinary Medicine 
                        and Biomedical Sciences
    Chairwoman Titus, Ranking Member Meadows, Vice Chairwoman Fletcher, 
and Members of the Subcommittee, thank you for inviting me to testify 
regarding the impact of disasters on animals and their owners. All too 
often, the impact of disasters on animals and owners are seen as 
separate issues, but as you will hear from my testimony, they are one 
in the same and must be looked at in that matter. My name is Dr. Wesley 
Bissett and I am the Director of the Texas A&M Veterinary Emergency 
Team (VET) at the Texas A&M College of Veterinary Medicine and 
Biomedical Sciences.
    The Texas A&M VET was formed at the request of the Texas Division 
of Emergency Management in 2010 to provide the State of Texas with a 
robust and deployable veterinary medical capability. The Texas A&M VET 
has deployed to all major disasters and numerous smaller-scale 
incidents that have occurred in our state since that time. The Texas 
A&M VET has been a key contributor to the state response effort on 
behalf of resident animals across a wide array of incident types 
including wildfires, explosions, hurricanes, floods, and the 2014 
Dallas, Texas Ebola virus incident. We have also been active through 
our integration with Texas Task Force 1, one of the 28 FEMA Urban 
Search and Rescue Teams, through our provision of veterinary medical 
support to canine assets attached to the team. The Texas A&M VET has in 
addition developed subject matter expertise in the area of emergency 
preparedness and are key members in our state's animal focused 
emergency planning efforts down to the local level.
                             Animal Issues
    ``All hazards emergency plans'' is a common mantra in the emergency 
management discipline. I would argue that the mantra needs to be ``all 
hazards and all species'' as animals are impacted in virtually all 
disaster scenarios. The State of Texas has had ample opportunity to 
learn this lesson given the many disasters that have occurred in our 
state, with one of the most recent being Hurricane Harvey in 2017. 
Human health, well-being, and safety is always the highest priority in 
emergency and disaster situations and I am not here to testify that 
animals should be given equal priority. The reality is however, that 
people will factor in their animals when deciding how to respond to a 
threat and many will make decisions that are not in their own best 
interest if their animals are not provided for. An example is provided 
by an elderly woman who refused to evacuate from Bolivar Peninsula in 
Texas prior to Hurricane Ike in 2008. She had recently had a knee 
replacement and would not leave her home prior to landfall due to her 
inability to carry her elderly dog down a flight of stairs. She did not 
realize help was available and was unfortunately identified by the 
serial number on her knee replacement hardware which was found 
approximately 6 miles and across the bay from her home. A more current 
example is provided by the 2019 novel Coronavirus incident unfolding 
before us. I am aware of a person who refused evacuation from Wuhan, 
China because their animal could not be evacuated with them.
    I, as a veterinarian, believe that animals are inherently worthy of 
an effective disaster response. As the Director of the Texas A&M VET, 
I, along with our team members have experienced just how important 
animals are to the human victims of a disaster. The reality of a human 
disaster victim is that it is someone who may have lost a home, a loved 
one, or a friend. They may be facing a tremendous sense of financial 
insecurity due to destruction of their place of employment, a bleak 
outlook for income generation, and the high costs of recovery. The 
reality is that our pets, our animals, our livestock are an important 
source of comfort and yes, security. These lessons have come through 
the many times that we have been involved in addressing disaster-
related animal injuries and illnesses on behalf of their owners and 
when we are involved with reuniting an owner and animal that had been 
separated by disaster conditions. These are powerful interactions that 
I believe provide one of the first opportunities for recovery of 
disaster victims. A common phrase that I hear during these interactions 
is ``Doc, everything is going to be okay.'' The reunion with their 
beloved pet or even herd of livestock is often the first time these 
people tell their stories and recognize that they can take a step 
forward to a renewed future. These situations are moments that I and 
other VET members will forever cherish. They illustrate that we, the 
Texas A&M VET, in addition to being in the business of veterinary 
medicine, are in the business of hope. I would argue that hope is a 
tremendous commodity to be brought into a community impacted by a 
disaster. I would further argue that the highest priority, human 
health, well-being, and safety, can never be fully addressed without 
addressing the animal condition.
    This role that animals play in our lives transcends the different 
species of animals. Household pets, in today's society, are often 
considered part of the family and the emotional bonds are strong. 
Emotional ties also exist for agricultural animals and while these 
animals are managed for profit and introduction into the human food 
supply, their care-givers have a tremendous emotional and psychological 
commitment to the health and well-being of the animals under their 
care. We have experienced the same expressions of hope when we have 
reunited ranchers and their cattle.
    Agricultural animals have the additional distinction of being 
economically important species. The Texas A&M AgriLife Extension 
Economic Unit estimated Hurricane Harvey agricultural animal losses at 
$93 million dollars. This is significant at the state level, but what 
does it mean on a finer scale? The loss of agricultural animals can 
most certainly be devastating to family operations. This loss is most 
certainly financial, but may also represent the loss of a lifetime or 
even generations of effort and genetic selection. An individual 
producer's losses reflect the loss of years of hard work and 
potentially threatens the ability to recover their operation and feed 
their family. The cost of lost agricultural animals escalates as 
multiple producers are impacted, particularly in communities whose 
primary economic base is derived from the agricultural sector. In these 
communities, lost agricultural income is multiplied across all of the 
businesses that provide services to animal agriculture producers. This 
can threaten recovery at the community level and persist well after the 
houses are rebuilt and roads are repaired.
    The need to consider and have resources capable of responding to 
animal issues exists throughout the disaster timeline spanning 
evacuation, rescue, veterinary medical care, sheltering, and 
reunification. These all require significant planning and development 
of resources, both of which may be beyond what can be provided in 
jurisdictions across the country. Our experience has been that many 
communities struggle to identify professionals with appropriate levels 
of animal-related and emergency management experience to develop 
effective animal-focused emergency plans. This is exacerbated due to 
the paucity of jurisdictional employees engaged in animal-related 
activities. Animal-related expertise employed by jurisdictions is 
typically limited to animal control officers, livestock officers and 
extension agents.
    The reality is that most jurisdictions struggle to provide adequate 
staffing and leadership for all emergency functions required for an 
effective animal-focused response. Animal response, as with other areas 
of emergency response, necessarily extends into the non-governmental 
arena. The challenge is that there are no underlying standards that 
apply to all involved and therefore no standardized foundation from 
which to build an effective response. There are also differences in 
agendas or underlying beliefs that make a cohesive response difficult. 
Our experience has been that there may often be differences between 
Animal Control Services and local non-governmental animal shelter or 
rescue groups. These differences are understandable given that there 
are differences in the underlying missions of these types of 
organizations. Neither are wrong; they are just different. We have seen 
similar difficulties when rural-based and urban- based units operate in 
the same disaster theater. There are often differences in what is 
considered acceptable when viewed from the lens of very different 
experiences and also differences in thought of what should be done for 
household pets versus livestock. This issue is compounded by most 
jurisdictions having budgetary limitations on what they can invest on 
behalf of animals. The end result is that the local response, 
particularly in larger scale disasters, falls short on providing for 
animals and therefore incompletely serves the highest priority of human 
health, well-being and safety.
    The role of veterinary medicine in emergency management is worthy 
of additional discussion. Local jurisdictions typically employs few, if 
any, veterinarians. This drives veterinary medical support into the 
private sector. The veterinary medical industry is still predominantly 
one driven by small businesses. It has also evolved to a point where 
more veterinarians are focusing on household pets rather than 
livestock. The Texas A&M VET experience is that most jurisdictions 
cannot pay for veterinary medical services provided in a disaster 
setting due to their not having the budgetary capacity for entering 
into veterinary service agreements. This is exacerbated for 
agricultural animal-related expenses given that they are expressly 
excluded from Stafford Act provisions addressing reimbursement of 
animal-related costs. The end result is that veterinarians are often 
expected to participate as volunteers with their business centers often 
being the epi-center of veterinary medical operations.
    It is important to note that this is not just a person 
volunteering. Veterinarians, to be effective, must have the ``tools of 
the trade.'' To make the point, would you expect a fireman to 
extinguish an apartment fire with a garden hose? In the case of 
veterinarians, the equipment, supplies, and pharmaceuticals are 
expensive, yet necessary and critical. Performing emergency operations 
in their place of business also interferes with their ability to 
recover their businesses and resume the process of income generation. 
They are also typically not trained to be in the disaster theater. 
Disaster conditions are often exceedingly hazardous and emergency 
operations complex. These two issues make it exceedingly difficult for 
veterinarians to commit to being a component of emergency operations. 
The 2011 Bastrop, Texas Complex Wildfire provides an excellent example. 
Two veterinary practices, one small animal and one mixed, participated 
on behalf of their county prior to the Texas A&M VET being deployed to 
the area. They estimated their financial losses associated with the 
response in the six-figure range. This was compounded by the shrinkage 
of their client pool after the disaster. An additional example is 
provided by a Large Animal veterinarian in coastal South Texas. He 
participated on behalf of his county during Hurricane Harvey in 2017. 
Recent personal conversations with this veterinarian revealed that he 
will not be participating in the future. Reasons expressed included 
significant financial investments with no reimbursement, lost ability 
to generate income for a period of approximately 45 days, and a lack of 
training for working in the hazards of the post-disaster environment.
    The result of the issues described above is predictable. There are 
many people and organizations who are passionate about animals yet very 
inexperienced in emergency management. Many of these individuals and 
groups are willing to self-deploy into a disaster area. This creates 
numerous issues. They rarely have the ability to be self-sustaining in 
terms of re-supply of necessary supplies or providing for themselves 
and quickly become another problem for the jurisdiction to manage.
    The lack of integration also results in the disposition of animals 
that are not consistent with the desires of the local government and 
citizens. Most local governments are committed to providing for their 
citizen's animals, with reunification of animals and the appropriate 
owner a priority. This is a complicated mission-tasking that requires a 
highly organized approach where knowing where the animals were rescued 
is key.
    The Texas A&M VET has witnessed self-deployed animal rescue groups 
simply remove animals from, for example, flood waters and deposit them 
on the most convenient high spot with no documentation of location of 
rescue. They have failed to deliver the animals to the sanctioned 
animal shelter. Our team has also witnessed the removal of household 
pets and livestock from safe locations where the animals were being 
sheltered in place.
    The end result of the issues discussed above is that animals of all 
species are not able to be reunited with their owners. There is a 
perception that I believe to be true, that many animals are rapidly 
removed from the disaster area, in some cases to out of state 
locations. The consequences are two-fold; a family or producer is not 
reunited with their animals and there is the potential for spread of 
disease to new areas. Heartworm disease is perhaps the best example of 
the latter issue.
                  Texas A&M Veterinary Emergency Team
    The Texas A&M VET was formed and officially incorporated into the 
State of Texas emergency management infrastructure so that the human 
priority can be fully addressed through dealing with the animal issue. 
The Texas A&M VET is comprised of faculty veterinarians, staff, and 
senior veterinary medical students from the Texas A&M College of 
Veterinary Medicine and Biomedical Sciences and veterinary medical 
professionals from the private sector. The VET is focused on providing 
holistic solutions for the human-animal issue and is active in all 
phases of emergency management. Senior veterinary medical students at 
the Texas A&M College of Veterinary Medicine and Biomedical Sciences 
participate in all VET activities. This augments immediate operational 
capacities and also builds capacity for the future. The Texas A&M VET 
will have educated approximately 1,400 veterinary medical professionals 
in the emergency management discipline by the end of this academic 
year. Ours is a capacity building effort.
    The Texas A&M VET also builds animal-focused capacities through 
providing critically needed animal-focused emergency planning support 
at the state and local level. The team works at the community level to 
make sure local jurisdictions have effective animal evacuation, rescue, 
veterinary medical support, decontamination, and sheltering tactical 
plans in place. This direct planning assistance is provided at no cost 
to the community and provides a unique educational opportunity in the 
veterinary medical educational arena with ours being the only program 
of this type in the country. The VET is also the primary provider of 
Secure Food Supply planning efforts in the State of Texas. In 2019 
alone, the team provided enhanced biosecurity planning expertise for 
concentrated animal feeding operations in the Texas Panhandle. The 
operations for which we developed enhanced biosecurity plans controlled 
in excess of 220,000 animals. The 2020 VET planning schedule will see 
the team develop plans for an additional 300,000 animals in the Secure 
Food Supply planning arena as well as a full suite of animal-focused 
tactical plans for numerous Texas counties.
    The Texas A&M VET response activities are typically centered in 
providing veterinary medical assistance for search and rescue canines 
and a wide range of mission taskings for resident animals. The Texas 
A&M VET developed a collaborative partnership with Texas Task Force 1, 
one of the 28 USAR teams, shortly after inception. Our role is to 
manage all of the veterinary medical issues that arise during in-state 
deployments. Search and rescue canines are a key component of the 
search and rescue effort. The canine search and rescue mission is a 
highly demanding job defined by strenuous physical exertion in 
difficult environments. The canines wore trackers in the 2014 Wimberly, 
Texas flash-flood response and were tracked at covering approximately 
13 miles per day in a river-bottom environment. Exertion and wear and 
tear associated with search operations had the potential to reduce the 
operational times that the dogs could operate.
    The Texas A&M VET focuses on the recovery process at the end of the 
dog's operational period and through these efforts keeps the dogs 
working. The team's management of search and rescue dogs includes laser 
therapy, preventive therapy, and pharmacological intervention. Texas 
Task Force 1 has reported that the efforts of the VET extends the 
intra-deployment operational lifespan of the search dogs by at least 50 
percent. The reality is that keeping these dogs working provides hope 
for those that are lost. This is all made possible through a focused 
commitment of VET members to become search and rescue dog experts as 
well as investments in medical platforms designed to facilitate 
treatment and care of the dogs.
    The Texas A&M VET also provides support for resident animals 
throughout the disaster timeline. The team has mission ready packages 
(MRP) for each phase of the disaster cycle. These include an Animal 
Evacuation MRP, Animal Shelter Incident Management Team MRP, and 
veterinary medical support MRPs that are scaled to the demands of the 
incident being responded to. The suite of Texas A&M VET MRPs provides a 
holistic approach for dealing with animal-related disaster issues.
    Hurricane Harvey provides one of the best examples of the 
capabilities of the Texas A&M VET. The team deployed with Texas Task 
Force 1 during the pre-landfall period to provide veterinary medical 
support for search and rescue dogs. As the storm made landfall and 
moved up the coast we were tasked with providing veterinary medical 
assistance and emergency animal shelter support for local 
jurisdictions. The VET was ultimately assigned to 10 Texas counties 
across a 400 mile operational theater. The VET's operational platform 
design and approach to planning and exercising allowed the team to 
provide veterinary medical support in an organized and highly efficient 
manner. In the words of Dr. Jimmy Tickle, formerly with the North 
Carolina Department of Agriculture, ``VET operations were a model for 
the nation.'' The Texas A&M VET provided direct support for 4,000 
animals in this deployment. This number escalates significantly when 
considering that many interventions were performed at the herd or 
population level.
    The value of the Texas A&M VET approach is recognized at a national 
level as evidenced by the team's deployment to Butte County, California 
in response to the 2018 Camp Wildfire. The assigned mission was to 
provide an Incident Management Team for emergency animal sheltering 
operations. The Texas A&M VET joined forces with the Texas A&M AgriLife 
Extension Service Animal Strike Team for the requested 60 day 
deployment. The team empowered local resources and provided consistency 
in management, allowing the mission to successfully conclude after a 30 
day period.
    The Texas A&M VET also fields a high consequence infectious disease 
(HCID) MRP. The VET trains for and is equipped to provide veterinary 
medical assistance when animals are involved in high consequence 
infectious disease events. Our first HCID deployment was during the 
2014 Dallas, Texas Ebola virus incident. The VET provided quarantine 
and monitoring of a household pet belonging to one of the U.S. victims 
of the disease. This is a particularly timely point of discussion given 
the concern of the novel Coronavirus circulating in China. Household 
pets belonging to U.S. citizens being evacuated from China are not 
being allowed to leave the country but the Texas A&M VET stands ready 
to provide quarantine if necessary. This is, given the potential for 
the introduction of HCIDs into the country, a critical resource that 
needs to be available at a federal level.
                            FEMA Opportunity
    Section 1218 of the Disaster Recovery Reform Act (P.L. 115-254) 
authorizes the Administrator of the Federal Emergency Management Agency 
(FEMA) to establish a national veterinary emergency teams at accredited 
colleges of veterinary medicine. This provides FEMA with an opportunity 
to address the issues discussed above. The capabilities of the Texas 
A&M VET described above has the potential to provide a significant 
advancement in federal veterinary medical emergency response 
capabilities and enhance Urban Search and Rescue capabilities through 
excellence in veterinary medical support for search and rescue canines. 
The programs I have described above, represents a significant 
advancement over veterinary medical disaster response assets currently 
in the federal inventory.
    In closing, I would like to thank you again for inviting me to 
testify on animal issues in disasters. I appreciate the committee's 
commitment to ensuring that the highest priority, human health, well-
being, and safety is fully addressed by also addressing animal issues.

    Ms. Titus. Thank you.
    Dr. Meckes?
    Dr. Meckes. Chairwoman Titus, Ranking Member Meadows, 
greetings from downtown Raleigh. Members of the Subcommittee on 
Economic Development, Public Buildings, and Emergency 
Management, I am Dr. Doug Meckes, and I serve as a State 
veterinarian, and director of the Veterinary Division in the 
North Carolina Department of Agriculture and Consumer Services.
    The division includes 150 employees that serve North 
Carolina's poultry and livestock industries, manage and operate 
the State's four veterinary diagnostic laboratories, and are 
charged with the implementation of our Animal Welfare Act in 
kennels, shelters, and other animal facilities throughout the 
State.
    North Carolina's robust agriculture and agribusiness 
industry is the number one industry in the State, and generated 
$91.8 billion in economic value to North Carolina's economy in 
2018, more than 17 percent of the State's gross domestic 
product.
    The sector also employs 17 percent of the State's 
workforce. Within agriculture and agribusiness in North 
Carolina, the animal agriculture industry, comprised of 
livestock, dairy, and poultry, accounted for 68.5 percent of 
$11.13 billion in farm cash receipts in 2018.
    North Carolina ranks second in hog production, second in 
turkey production, and is one of the most diverse poultry-
producing States in the U.S.
    At these levels of production, there are significant 
numbers of animals and poultry on the ground on any given day 
in North Carolina, as many as 9 million pigs and 190 million 
poultry. That said, natural disasters or animal diseases have 
the potential to impact large numbers of any of these species.
    The single most significant disaster in North Carolina 
history, the event that is now the frame of reference for all 
natural disasters, is Hurricane Floyd, September 11th, 1999. It 
resulted in the most severe flooding and devastation of North 
Carolina's history at that point in time. The flooding resulted 
in $813 million in agriculture losses, the demise of 2.9 
million birds, 28,000 pigs, and 619 cattle.
    Disposal of mortality was managed in whatever fashion was 
most convenient. And sadly, to the detriment of the environment 
in some circumstances. Given North Carolina's commitment to 
properly managing mortality today, such an approach is 
unacceptable. In fact, Agriculture Commissioner Steve Troxler's 
marching orders with regards to storms and animal disease are, 
``We will not create an environmental disaster associated with 
an incident of mass mortality in our animal or poultry 
production.'' That guidance has served us well in North 
Carolina of late, for we have experienced three major 
hurricanes since 2016, two of which required significant 
mortality management efforts on our part.
    North Carolina also has engaged in planning efforts since 
2015 and 2016 for management of an outbreak of high-path avian 
influenza in our State. Fortunately, that has not come to pass. 
And since 2018 we have engaged in planning efforts for 
management of swine mortality in the event of an outbreak of 
African swine fever.
    The efforts of North Carolina's agricultural response teams 
have undertaken in collaboration with our State colleagues, our 
subject matter experts from around the country, have 
contributed mightily to the current state of the art of 
composting in animal and poultry mortality.
    I must also note that, during Hurricanes Matthew and 
Florence, FEMA engaged with our agriculture community in a most 
meaningful way, providing support for our various activities in 
managing poultry mortality. FEMA's support of North Carolina's 
efforts to protect public health and minimize environmental 
impact markedly decreased our response duration and provided 
for a more timely recovery of participating poultry farms. 
North Carolina looks forward to expanding our partnership with 
FEMA, and moving forward to a better understanding of FEMA's 
role in response to animal agriculture disasters.
    With regard to the management of companion animals during 
disasters, I highlighted in my written testimony the activities 
of the Veterinary Division's Animal Welfare Section, Emergency 
Programs Division, and county animal control assets in response 
to such incidents.
    Finally, I must say the Veterinary Division and the 
Emergency Programs Division in North Carolina believe there are 
currently gaps in existing capability at the State and Federal 
level to manage a catastrophic animal disease outbreak. Such an 
incident, usually considered the sole responsibility of USDA, 
could be of such consequence that all responses available would 
need to be brought to bear. Given the global character of 
trade, of travel, of illegal movements of agricultural 
products, perhaps it is time to consider a fully integrated 
approach to such an event.
    Thank you for the opportunity to speak today on North 
Carolina's management of animals in disaster, and I am happy to 
answer any questions you may have.
    [Dr. Meckes' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of R. Douglas Meckes, D.V.M., State Veterinarian, 
     North Carolina Department of Agriculture and Consumer Services
    Chairman DeFazio, Ranking Member Graves, and members of the 
Subcommittee on Economic Development, Public Buildings, and Emergency 
Management, I am Dr. Doug Meckes, and I serve as the State Veterinarian 
and the Director of the Veterinary Division at the North Carolina 
Department of Agriculture and Consumer Services (NCDA&CS). The division 
includes 150 employees that serve North Carolina's poultry and 
livestock industry, manage and operate the state's four veterinary 
diagnostic laboratories, and are charged with implementation of the 
Animal Welfare Act in kennels, shelters, and other animal facilities 
caring for and housing companion animals in North Carolina.
    North Carolina's robust agriculture and agribusiness industry is 
the number 1 industry in the state, contributes nearly $91.8 billion on 
an annual basis to North Carolina's economy, more than 17% of the 
state's gross domestic product, and employs 17% of the state's 
employees.
    Within agriculture and agribusiness in North Carolina, the animal 
agriculture industry--comprised of livestock, dairy, and poultry--
accounted for 68.5% of $11.13 billion of farm cash receipts in the 
state in 2018. Additionally, North Carolina ranks second in hog 
production, second in turkey production and, as one of the most diverse 
poultry producing states in the U.S., second or third annually in 
overall poultry cash receipts.
    The Veterinary Division and the NCDA&CS's Emergency Programs 
Division (EP Division), established in the early 2000's, lead the 
Department's agricultural preparedness, response, and recovery 
activities. The EP Division partners with the Veterinary Division to 
protect North Carolina's animal agriculture industry and to formulate 
plans to meet the challenges facing agriculture and food in the 21st 
century. The mission of the EP Division is to ``support the agriculture 
community and protect consumers by coordinating the Department's 
efforts to plan for, respond to and recover from emergency events and 
public health concerns that may impact agriculture in North Carolina.'' 
The EP Division is a unique operating entity as few other states in the 
nation have used this model. It is fully integrated into the State 
Emergency Management Division's operational structure as the lead 
agency for Emergency Support Function #11 (ESF#11) and engages on a 
day-to-day basis with internal and external stakeholders from the 
local, regional, state, and national level. Since its inception, the EP 
Division has had an all hazards approach and participated in response 
to animal disease, food illness outbreaks, wildfires, and, of course, 
hurricanes. Additionally, members of the EP and Veterinary Divisions 
have deployed in a variety of other incidents around the country to 
assist our counterparts in other states. Particularly impactful has 
been the Veterinary and EP Divisions' engagement with the animal 
agriculture industry at all levels regarding potential threats from 
catastrophic disease outbreaks to natural disasters.
    In the past 3 years, North Carolina has been significantly impacted 
by, and stood up a robust response to, 3 major hurricanes--Hurricane 
Matthew (2016), Hurricane Florence (2018), and Hurricane Dorian (2019).
    Hurricane Matthew made landfall on the coast of South Carolina on 
October 8, 2016 but caused historic flooding across central and eastern 
North Carolina--greater than that of Hurricane Floyd in 1999. Almost 
half of the state received a major disaster declaration. Though there 
were far greater numbers of poultry and livestock on the ground in 
2016, there was less mortality: 2,800 swine (of 9 million on the ground 
in North Carolina every day), 1.9 million poultry (of the 190 million 
birds on the ground in North Carolina every day), and only a few 
cattle. All carcasses were properly managed, the swine predominately by 
their respective integrators and growers, and the poultry by 
integrators, growers and the significant efforts of state response 
teams which composted the birds. As a result, environmental 
consequences and public health concerns associated with mortality 
management were minimal. $1.5 million from a FEMA Public Assistance 
Grant was used for the purchase of carbon source to facilitate the 
composting of poultry mortality. This was the first time that FEMA 
supported such an effort in a mass animal mortality incident.
    Hurricane Florence made landfall near Wrightsville Beach in North 
Carolina as a Category 1 hurricane on September 14, 2018, again causing 
historic flooding across Eastern North Carolina and resulting in a 
major disaster declaration for more than half the state. The storm 
dropped as much as 35 inches of rain in the densest animal agriculture 
production areas of Eastern North Carolina. Approximately 4.2 million 
poultry and 5,500 swine were lost in 14 counties due to the storm.
    Well ahead of landfall, on September 7, 2018, NC Governor Roy 
Cooper issued two storm-related Executive Orders. Executive Order 51 
was the Declaration of a State of Emergency. Executive Order 52 was a 
Temporary Suspension of Motor Vehicle Regulations to ensure restoration 
of utility services and transporting essentials. It suspended, 
temporarily, weighing vehicles, including those used to transport 
animal feed, livestock, poultry, and crops, and waived the maximum 
number of hours of service for drivers of these vehicles. The 
agriculture industry of North Carolina relies on this wavier to move 
animals and harvested crops out of harm's way to reduce the impact to 
the agricultural industry as well as pre-position feed, fuel, and other 
supplies to ride out the storm. It is estimated that this wavier 
allowed the industry to move approximately 1.5 million poultry and 
thousands of swine prior to the storm, preventing further catastrophic 
losses.
    NCDA&CS organized conference calls and meetings with industry 
partners (poultry, livestock, dairies, food firms) many days prior to 
the storm and continued those calls on a regular basis through landfall 
and response. The Veterinary Division also sent out maps created by 
Emergency Programs staff to industry partners that overlay National 
Weather Service data, including wind and rain forecasts, with farm 
location data (which the industry provides voluntarily to NCDA&CS) so 
the industry knows which farms may be impacted.
    NCDA&CS fully activated its Agriculture Incident Management Team 
for coordination of all response and recovery operations for the 
Department on September 16, 2018. NCDA&CS also provided an ESF#11 
Liaison to the State Emergency Operations Center. A typical Incident 
Command System (ICS) structure was used for response activities and 
included the following Operations Groups--Poultry, Livestock, Mortality 
Management, Companion Animal, Food and Drug, and Agronomic Services. A 
24-hour public hotline was opened and staffed for the duration of the 
response.
    The Poultry Group received reports from poultry companies and 
producers of damage and mortality and requests for assistance with 
depopulation and disposal. They deployed teams and equipment to assess 
and depopulate poultry due to animal welfare concerns in houses 
impacted by power loss, partial flooding, or building collapse.
    The Livestock Group received reports of impacts to both commercial 
livestock facilities and small farms which included livestock running 
at large or stranded with farmers unable to deliver feed and fresh 
water or operate and refuel generators to run critical electrical 
functions of the animal housing. NCDA&CS response included the use of 
boats, high-clearance vehicles, and helicopters to address impacts to 
livestock.
    The Mortality Management Group provided technical expertise 
specific to mortality issues on each impacted farm. The group also 
prioritized, planned, and monitored response operations on farms, 
verifying that prescribed activities were conducted and completed 
properly. Of 75 total poultry farms impacted, 58 farms entered the 
state's Mortality Management Program.
    Based upon lessons learned from Hurricane Matthew in 2016, NCDA&CS 
and FEMA worked together to develop a $12.6 million grant through 
FEMA's Public Assistance (PA) Program to support the Department's 
Mortality Management Program. The grant outlined three contracted 
service components for management of animal mortality by composting: 
Composting Subject Matter Experts, Carbon Acquisition and Delivery, and 
Removal and Hauling. Using this approach, which will become the model 
for all such future responses, the entire project was completed in only 
35 days. The efficiency of this process protected the environment and 
public health and allowed for a timely return to production for 
affected integrators and growers.
    NCDA&CS Veterinary and EP Divisions' experiences with animal 
mortality composting began in a meaningful way during the 2015 HPAI 
outbreaks in the Midwest. During the disease outbreak, composting as a 
means of mortality management became the method of choice. NCDA&CS 
staff adapted lessons learned about composting from that response to 
managing mortality due to flooding. Burial of animal carcasses in 
Eastern North Carolina, especially after a flood event such as 
Hurricanes Matthew and Florence, is not a solution to mass animal 
mortality due to the high seasonal water table.
    NCDA&CS staff have continued to expand and perfect capability. In 
collaboration with Maine Cooperative Extension and USDA, NCDA&CS 
obtained grant funding to research effective techniques to improve 
animal mortality composting. In 2019, two demonstration projects and a 
composting school were conducted in North Carolina. Today, in the face 
of the threat of African Swine Fever to our swine industry, and with 
the knowledge of the catastrophic losses of swine in China and the far 
East with perhaps as many as 350 million swine dead, the necessity for 
a solution to mass animal mortality takes on even greater urgency.
    Going forward, State agriculture agencies need more financial 
support to prepare and develop robust response programs. In addition, 
livestock response activities should be eligible for FEMA PA funding. 
Although response activities related to keeping livestock animals alive 
align with the FEMA Public Assistance eligibility requirements, such 
activities are often deemed ineligible for this funding. Providing 
relatively simple emergency response actions to save livestock animals 
potentially reduces mass mortality--a cascading event. Moving livestock 
to safer locations, feeding them, repairing fences and other 
containment structures, and other means of securing livestock are 
critical from a public health and safety standpoint. If livestock are 
outside of their containment areas (fenced pastures, barns, etc.), 
injury or death of nearby citizens, including responders, is an 
immediate concern, especially if the animals are in roadways.
    We know that owners of companion animals are less likely to 
evacuate during a disaster unless they can bring their animals with 
them--this is, of course, the basis for the PETS Act. Livestock owners 
and their employees may likewise risk their lives to take care of these 
animals without proper equipment or supplies. Human lives can be saved 
by providing PA funding to those agencies or groups that have the 
authority to assist these owners in saving their animals. FEMA has 
previously determined that the expenses for providing shelter, bedding, 
feed, and supplies to horses and livestock incurred during wildfires in 
California in October 2007 were eligible for reimbursement as emergency 
protective measures (https://www.fema.gov/appeal/219472).
    Uniquely associated with the management of animals in disasters in 
North Carolina is waste management. Within the state there are 
approximately 3,300 waste treatment lagoons associated with swine 
production operations. Proper management of these lagoons is recognized 
as essential to protection of the environment in anticipation of 
significant storm and rainfall events. The Veterinary, EP and Soil and 
Water Conservation Divisions cooperate with the Department of 
Environmental Quality of North Carolina which is charged with oversight 
of animal feeding operations and their waste management plans, in their 
efforts in anticipation of such storms to properly manage these 
lagoons.
    Those pro-active efforts were successful during Hurricane Florence. 
Lagoons on just 6 farms suffered structural damage, 8 farms experienced 
inundation of lagoons with flood waters, and 28 farms experienced 
overflows of rainwater during the storm--98% of North Carolina's active 
swine lagoons did not experience any of these issues. An inconvenient 
truth that received scant mention in media coverage is more than 121 
million gallons of untreated and partially treated human sewage that 
discharged directly to surface waters at more than 200 municipal 
wastewater treatment systems across the state.
    Finally, the rescue, care, and housing of companion animals must 
also be addressed during disaster. The Veterinary Division's Animal 
Welfare Program, established by the North Carolina General Assembly to 
create a uniform system for the regulation of private and public animal 
shelters, oversees 930 such shelters and other companion animal 
facilities throughout the state. This Program is managed by the Animal 
Welfare Section (AWS) of the Veterinary Division. Many of these 
shelters and facilities stand in harm's way of the hurricanes that 
frequently impact North Carolina. To appropriately prepare for these 
events, the AWS requests that every licensed/registered shelter or 
facility have a natural disaster response plan that has been approved 
by the local emergency management agency. The AWS and the EP Division 
work with local government, emergency management, and animal shelters/
facilities to identify how these facilities will manage the animals 
long before a storm or disaster hits the community. The AWS also 
coordinates with these agencies and facilities ahead of time to develop 
protocols for set-up, registration, intake, animal care, sanitation, 
and demobilization of temporary animal sheltering areas co-located with 
human shelters. Temporary animal sheltering resources are prepositioned 
near the expected landfall area in the event of a forecasted disaster; 
these resources are then readily available, after the event, to care 
for displaced animals. Subsequent to the passing of the storm or when 
conditions permit access to shelters/facilities in the affected area, 
the AWS and the EP Division coordinate with national and local 
resources to support the hardest hit areas with personnel and 
resources. In the immediate aftermath of the event, AWS and EP act as a 
clearinghouse for donations of both monetary and material resources. 
Assistance is also provided to direct teams of volunteers to the 
shelters and counties that have the greatest needs.
    During recovery from a disaster the AWS and EP Division continue to 
offer support and coordinate relief efforts for the animal shelters/
facilities and affected communities. Inspections of temporary shelters 
continue until they have been demobilized and citizens are assisted 
with complaints concerning events that occurred during the disaster and 
its aftermath when under the jurisdiction of the AWS. The rescue, care, 
and sheltering of companion animals during disasters has been 
recognized as essential to a successful response. The Department's 
Animal Welfare Section leads the way in this important endeavor in 
North Carolina.
    Thank you for the opportunity to provide insight into North 
Carolina's programs and efforts to address natural disasters and/or 
animal disease emergencies. Given the state's location on the eastern 
coastline of our Nation, there will, no doubt, be continuing needs to 
deploy our State's response teams. In such events, we look forward to 
expanding our partnership with FEMA, moving toward a better 
understanding of livestock response activities eligible for 
reimbursement, enabling our teams to readily manage storm impacts and, 
going forward, building upon current capabilities to improve outcomes. 
Additionally, our Veterinary and EP Divisions believe there currently 
exists a gap in capability at the state and Federal level for a 
catastrophic animal disease outbreak. Such an incident, usually 
considered the sole responsibility of USDA, could be of such 
consequence that all response resources available would need to be 
brought to bear. Given the global character of trade, travel, and 
illegal movement of agricultural products, perhaps it's time to 
consider a fully integrated approach to such an event.

    Ms. Titus. Thank you, Doctor.
    Ms. MacPherson?
    Ms. MacPherson. Good morning, Chairwoman Titus, Ranking 
Member Meadows, and members of the subcommittee, thank you very 
much for this opportunity to testify on the issue of animals in 
disaster--in my case, search and rescue dogs.
    I am Teresa MacPherson. I am a member of Virginia Task 
Force 1, which is one of the 28 urban search-and-rescue teams 
in the country. And my position on the task force is canine 
search specialist. I am a dog handler. I have been a member of 
the Federal system since 1993, and have some extensive 
experience with flying dogs commercially in cabin.
    I will be speaking for the Federal USAR dogs, but I 
understand that many, if not most, of the State teams also fall 
within the realm of what I will be talking about.
    In the past, we dog handlers have had it pretty good with 
flying our dogs for training, testing, and deploying. We have 
been loosely lumped under service animals, and I would say our 
dogs are on a par with service animals, as far as health, 
temperament, and obedience training, which are the main things 
that the airlines are concerned with. After that, our paths 
diverge from service dog training, but the airlines don't 
really care that our dogs are trained to climb ladders, take a 
direction from 50 yards out, traverse rubble searching for 
victims in disaster situations like earthquakes, hurricanes, 
explosions, mudslides, tornadoes, pretty much whatever comes 
up. Our dogs are trained and tested to handle it.
    In 2005, for Hurricane Katrina, all of the FEMA task forces 
responded on a rotational basis to Louisiana and Mississippi, 
some task forces responding twice. At one point I was asked by 
the FEMA USAR branch office for the FAA regulation that allows 
our dogs to fly in cabin commercially. They needed to get a lot 
of people to and from this place.
    I responded that there is none. This was met with surprise, 
and there was discussion of addressing this issue in the 
future. But at this time we really weren't having any problems 
with flying our dogs commercially in cabin. They were being 
very accommodating, even welcoming. They treated our dogs like 
heroes.
    But this has changed drastically in the past few years. The 
last time I was in the security line with my dog, I heard a 
passenger behind me say, ``Wow, anyone can buy a working vest 
for a dog online.'' And sadly, it is true. And people do. 
Currently, the airlines have to deal with dogs with virtually 
no training, poor temperament, health issues, mainly because of 
fake working dogs and fake emotional support animals.
    And I do not mean to disparage the legitimate service dogs 
or the legitimate ESAs. I am talking about the passenger who 
rings her call button and advises the flight attendant that her 
emotional support animal just pooped on the floor and needs 
cleaning up. True story.
    Now the regulations are tightening up, and we are happy 
about that. But it is affecting our dogs in a negative way, 
because of the definition of a service animal, which is an 
animal that provides a specific function for a disabled person. 
That is not us.
    So now we have no place, and the airlines don't know what 
to do with us. They make individual regulations that vary from 
airline to airline, change often, and result in general 
confusion on the part of the handler, as well as the airline 
personnel. Many times we have to wait while a supervisor is 
summoned, or get in a special line and wait until the dog guy 
comes in.
    It is time to legitimize our dogs, and to be on a par with 
service animals for air transport. All of our dogs are 
screened, trained, tested, and certified. It is important to 
know that we can get to and from a disaster with our dogs, that 
we can respond as a specific canine resource. Most often we 
respond with our task force, which is 50 to 70-plus members, 
and comprised of heavy rescue, logistics, medical, hazmat, 
structural engineers, and more. And getting the dog component 
onboard can be problematic for the whole team.
    We can provide the necessary paperwork to show our dogs are 
of sound temperament, healthy, and well-behaved. We would like 
to see this request to fly our dogs in cabin expanded to apply 
to training and testing, as well as deployment. It is important 
that the dogs are trained and tested in a variety of 
situations. They need to travel to different training sites. 
They need to experience different environments, because we need 
to train them to expect the unexpected.
    The Haiti deployment really validated our dogs. There was 
no way to replicate in training a scene of such mass 
destruction, never-ending rubble, decomposing bodies 
everywhere, garbage, loose animals running around. Yet our dogs 
worked in this nightmare and they found people, including 
children and babies, saving their lives. So our training works.
    But in order to teach our dogs to expect the unexpected, we 
need to continue to have the opportunities to train for it. And 
I thank you for this opportunity. I look forward to working 
with the subcommittee as it looks to address the challenges to 
ensure our search-and-rescue dogs are able to travel without 
restriction, whether for disaster response, training, or 
evaluation in our effort to save lives.
    [Ms. MacPherson did not submit a prepared statement.]
    Ms. Titus. Thank you so much.
    Mr. Patch?
    Mr. Patch. Good morning, Chairwoman Titus, Ranking Member 
Meadows, and members of the subcommittee. Thank you for the 
opportunity to present our testimony on the importance of 
protecting animals during disasters.
    My name is Richard Patch. I am the vice president for 
Federal affairs for the American Society for the Prevention of 
Cruelty to Animals. Founded in 1866, the ASPCA was the very 
first animal welfare organization established in North America. 
The ASPCA has a strong history of leadership in protecting 
animals in times of disaster.
    We are pleased that local, State, and Federal agencies are 
increasingly prioritizing the care of animals during disasters. 
The ASPCA has witnessed firsthand how a lack of preparation can 
lead to dire consequences for animals left behind, and how the 
absence of appropriate planning can create burdens and risks 
for human victims, as well as responders.
    It is important that we continue to elevate the need to 
include animals in disaster planning. Today I would like to 
discuss our organization's work in disasters, as well as some 
policy changes that will ensure our animals are better 
protected.
    The ASPCA deploys nationwide at the invitation of State and 
local authorities to assist in relocation, search and rescue, 
sheltering, and placement of animals during disasters, 
including wildfires, tornadoes, hurricanes, and floods. Recent 
examples include responding with local authorities to the 
wildfires that devastated northern California last fall, 
assisting with search and rescue for animals affected by 
historic flooding in central Arkansas, and responding to 
multiple hurricanes, including Florence in North Carolina and 
Michael in Florida.
    One of the key lessons learned during and since Hurricane 
Katrina, where an estimated 600,000 animals died or were left 
to suffer without rescuers or shelter, was that animals must 
always be a part of disaster planning. We cannot forget the 
images of dogs swimming to rescue boats or stranded on 
rooftops, nor can we forget the heartbreak of a 9-year-old boy 
separated by authorities from his dog, Snowball, while boarding 
a bus to evacuate. Many, faced with a difficult choice between 
evacuating to safety without their pets or staying behind, 
chose to stay with their pets. This is why modern, thoughtful 
disaster planning should always include animals.
    We are thankful that Congress responded to the lessons from 
Katrina by passing the Pets Evacuation and Transportation 
Standards Act, the PETS Act, which requires that State and 
local entities include the needs of individuals with household 
pets and service animals into their disaster plans.
    Additionally, Congress passed the Veterinary Medicine 
Mobility Act, which clarified that veterinarians could 
transport and dispense vital medicines while practicing in the 
field, including during disasters.
    However, there are still gaps for animals in disaster 
planning that Congress can and should address.
    First, the ASPCA urges Congress to pass H.R. 1042, the 
PREPARED Act. This bipartisan legislation, sponsored by 
Chairwoman Titus and Congressman Peter King, will ensure that 
animals in certain institutional settings like zoos, research 
facilities, and commercial breeding operations create 
commonsense plans to protect the animals in their care during 
disasters. Although these entities are regulated by USDA under 
the Animal Welfare Act, there are no Federal requirements that 
these facilities have emergency or disaster plans in place.
    Second, we see a need for more resources to provide 
training and equipment for first responders to better handle 
and care for animals. An ASPCA survey revealed that more than 
75 percent of responding States and counties reported 
additional needs for emergency training, expertise and 
equipment.
    Third, veterinarians need more flexibility to deploy across 
State lines in response to disasters. We know hurricanes and 
other storms don't stop at State lines. Neither should our 
ability to provide emergency care to animals in disasters.
    Lastly, there should be greater use of cohabitated and 
colocated shelters. Cohabitated shelters house people and pets 
together within a shelter, while colocated shelters have 
separate facilities for the humans and pets, but are typically 
in close proximity, enabling the families to regularly visit 
their pets, and even provide for their care.
    We look forward to working with the subcommittee to find 
the best solutions to these challenges. With natural disasters 
occurring with increasing frequency and greater ferocity, 
preparedness is becoming ever more important.
    Thank you so much for the opportunity to testify. I look 
forward to responding to your questions.
    [Mr. Patch's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Richard Patch, Vice President, Federal Affairs, 
       American Society for the Prevention of Cruelty to Animals
    Chairwoman Titus, Ranking Member Meadows, and members of the 
Subcommittee, thank you very much for the opportunity to testify on the 
importance of protecting animals during disasters.
    My name is Richard Patch, and I am the Vice President of Federal 
Affairs for the American Society for the Prevention of Cruelty to 
Animals. The ASPCA was the very first animal welfare organization 
established in North America. Since our founding in 1866, we have 
worked constantly to alleviate animal suffering. In particular, the 
ASPCA has a strong history of leadership protecting animals in times of 
disaster.
    We are pleased that local, state, and federal agencies, as well as 
communities around the country, are increasingly prioritizing the care 
of animals during disasters. The ASPCA knows firsthand that lack of 
preparation leads to dire consequences for animals left behind and that 
the absence of appropriate plans and operations creates burdens and 
risks for human victims and emergency responders. It is extremely 
important that we as a society continue to elevate the need to include 
animals in disaster planning.
              The ASPCA's Commitment to Disaster Response
    The ASPCA regularly deploys nationwide at the invitation of state 
and local authorities to assist in pre- and post-storm relocation, 
search-and-rescue, sheltering, and placement of animals during 
disasters such as wildfires, tornadoes, hurricanes, and floods. Since 
2010, we have deployed for disasters across 24 states and territories. 
The ASPCA maintains memoranda of understanding with cities, counties, 
and states across the country that specifically define the roles our 
organization and emergency management authorities will play if we are 
asked to respond to a disaster. Even when we are not needed for 
deployment, we often provide remote expert consultation to help 
agencies prepare and carry out their operations.
    In October 2019, the ASPCA, at the request of Sonoma County Animal 
Services, was on the ground helping animals impacted by the Kincade 
wildfire that devastated Northern California. The ASPCA's team of 
disaster response professionals deployed with emergency response 
equipment and conducted animal search and rescue requests. We also 
performed welfare checks on non-evacuated pets and livestock. With 
support from the ASPCA and other groups, Sonoma County Animal Services 
was able to assist approximately 1,500 animals.
    That response was in addition to our June 2019 deployment, at the 
request of the Arkansas Department of Agriculture, Livestock and 
Poultry Commission, to assist the Faulkner County Office of Emergency 
Management and the Faulkner County Animal Response Team with search and 
rescue and sheltering of over 70 animals affected by the historic 
flooding in central Arkansas.
    In 2018, the ASPCA responded to a string of natural disasters, 
including deploying to North Carolina and South Carolina for Hurricane 
Florence, to Florida for Hurricane Michael, to Hawaii following a 
volcano eruption, and to California in the wake of both mudslides and 
wildfires. In that year alone, we assisted more than 9,000 animals 
through pre-evacuation, field rescue, and post-disaster relief efforts.
    For a typical weather-related event such as a major storm or 
hurricane--which we can track before it makes landfall--the ASPCA's 
work begins by monitoring the storm and directing resources towards the 
likely affected areas. We maintain constant communication with 
emergency management agencies and local animal shelters to determine 
the best course of action to help animals in affected communities. 
Often, we deploy small teams of our responders, supplies, and other 
resources to staging areas located near locations expected to be 
heavily impacted. Once situated, those teams can monitor weather and 
transportation conditions as we await official requests for assistance.
    We know that animal shelters are often inundated with displaced 
animals in the immediate aftermath of hurricanes and other major 
storms. To accommodate the increase in animals brought to shelters 
during these events and to ensure that displaced pets can be reunited 
with families, the ASPCA assists local shelters in advance work, 
including transporting their adoptable animals out of impacted areas to 
shelters in our relocation network or to other facilities. During the 
response to back-to-back Hurricanes Irma and Harvey in 2017, the ASPCA 
set up a temporary emergency shelter in South Carolina where adoptable 
animals from impacted areas were transported and cared for before being 
sent to shelters that could focus on their adoption. During those two 
storms, the ASPCA helped relocate more than 1,500 adoptable animals 
from impacted areas to shelters around the country to give them a 
second chance for a loving home. Working with Wings of Rescue in the 
response to Hurricane Dorian last year, the ASPCA transported nearly 
200 adoptable animals from South Carolina's coast to animal shelters 
well outside of the storm's path.
    In addition to our work on the ground during disasters, our 
organization provides grants and training opportunities to local 
agencies across the country to help enhance their animal response 
capabilities. In cases that do not require our direct deployment, we 
often consult to provide animal-specific expertise to FEMA and to state 
and local emergency management teams.
    The ASPCA has been a member of the National Animal Rescue and 
Sheltering Coalition (NARSC) since its inception in 2006. This 
coalition of national organizations works with states to identify 
collaborative solutions to major human-animal emergency needs. 
Additionally, our organization has granted over $2 million in the past 
decade to support animals affected by emergencies and disasters. 
Through our direct deployments, our subject matter expertise and 
consultation, and our grant awards, the ASPCA leads the nation in 
elevating the importance of including animals in disaster preparedness 
and response.
     Congressional Response to Challenges for Animals in Disasters
    One of the key lessons learned during and since Hurricane Katrina, 
where an estimated 600,000 animals died or were left to suffer without 
rescue or shelter, was that animals must always be a part of disaster 
planning. We cannot forget the images of dogs swimming to rescue boats 
or stranded on rooftops, nor can we forget the heartbreak of the 9 year 
old boy separated by authorities from his dog Snowball while boarding a 
bus to evacuate. Many faced with the difficult choice between 
evacuating to safety without their pets or staying behind chose to stay 
with their pets. A Mississippi county emergency manager estimated that 
one quarter of the fatalities in their area were residents who chose to 
stay behind with a pet. This is why modern, thoughtful disaster 
planning should always include animals.
    In response to these lessons from Katrina, Congress passed the Pet 
Evacuation and Transportation Standards (PETS) Act. Introduced by the 
late Representative Tom Lantos and Representative Christopher Shays, 
this law requires state and local entities to include in their disaster 
plans the needs of individuals with household pets and service animals. 
We have witnessed the benefits of the PETS Act in recent disasters. For 
example, more emergency shelters now allow families to bring their 
companion animals with them, and cities and municipalities routinely 
relax restrictions on animals on public transportation during disasters 
to aid evacuations. We have also seen increased inclusion of animals in 
planning and response by FEMA and other federal agencies engaged in 
disaster response, as well as more collaboration and communication 
between disaster response groups and local animal welfare 
organizations.
    In 2014, Congress also acted to ensure that veterinarians can more 
effectively and easily respond to disasters by enacting the Veterinary 
Medicine Mobility Act. This law specifically clarifies veterinarians' 
ability to transport and dispense vital medicines while practicing in 
the field, including during disasters.
    Congress can and should address the remaining gaps in the inclusion 
of animals in disaster planning. In particular, the ASPCA urges 
Congress to pass H.R. 1042, the ``Providing Responsible Emergency Plans 
for Animals at Risk of Emerging Disasters Act'' or ``PREPARED Act.'' 
This bipartisan legislation, sponsored by Chairwoman Titus and 
Representative Peter King, will ensure that animals in certain 
institutional settings--such as zoos, research facilities, and 
commercial breeding operations--create detailed plans to protect the 
animals in their care during disasters and ensure that their employees 
know what steps to take when an emergency occurs. Although these 
entities are regulated by the U.S. Department of Agriculture under the 
Animal Welfare Act (AWA), there are no federal requirements that these 
facilities have emergency or disaster plans in place.
    Animals in AWA licensed facilities are particularly vulnerable to 
disasters and pose a unique high risk to first responders. For example, 
Hurricane Katrina killed approximately 8,000 animals, including dogs 
and monkeys, at Louisiana State University's Health Sciences Center 
School of Medicine. The storm also cut off power to the New Orleans 
Aquarium of the Americas, resulting in the deaths of 10,000 fish. Many 
animals in these types of facilities may be dangerous or require highly 
specialized handling, further necessitating pre-planning that would 
help ensure they do not escape and put the public at risk. In 2015, big 
cats and other exotic animals escaped an AWA licensed zoological park 
in Oklahoma after a tornado struck. The risk to public safety forced 
the local sheriff to advise residents to stay indoors until the animals 
were accounted for.
    The PREPARED Act is just one of many avenues for policy change to 
facilitate more effective disaster responses and to save more animals. 
For example, we see a need for more resources to provide training and 
equipment for first responders to better handle and care for animals. 
The ASPCA's National Capabilities for Animal Response in Emergencies 
(NCARE) survey findings, published in the Journal of Homeland Security 
and Emergency Management in 2017, revealed that more than 75% of 
responding states and counties reported needs for additional emergency 
training, expertise, and equipment.
    Also, veterinarians need more flexibility to deploy across state 
lines in response to disasters. While the Department of Health and 
Human Services' National Veterinary Response Team (NVRT) has been 
helpful in major disasters, many veterinarians whose expertise is 
needed in disasters not large enough to meet the NVRT's activation 
threshold may have trouble attaining waivers to practice across state 
lines. Regulatory challenges relating to the transport of animals 
suggest a need for more flexibility during disasters. Hurricanes and 
other natural disasters don't stop at state lines--neither should the 
ability to provide emergency care to animals in disasters.
    Another policy change that would positively impact companion 
animals during disasters is a greater use of cohabitated and co-located 
shelters. Cohabitated shelters house people and pets together in the 
same space. Co-located shelters house people and pets separately but 
are typically in close proximity, enabling families to easily and 
regularly visit and care for their pets (alleviating the burden on 
responding agencies). According to our NCARE survey, only 50% of 
counties with fewer than one million inhabitants reported having plans 
for cohabitational shelters, compared to 80% of larger counties. With 
the proper planning and implementation, these shelters give pet owners 
the option of seeking shelter where both they and their pets will be 
safe. That peace of mind can be solace to a family that has lost 
everything in a disaster. We encourage FEMA to ensure that cohabitated 
shelters become the norm for housing animals in disasters. For millions 
of people, pets are part of the family. It is vital to implement 
disaster plans that consider the entire family.
    We look forward to the opportunity to work with this Subcommittee 
to find the best solutions to these challenges.
                   Keeping Pets Safe During Disasters
    The PREPARED Act would help protect animals housed in certain 
federally regulated businesses and institutional settings. However, 
individuals also have a responsibility to prepare for and take the 
necessary actions to protect their own animals when a disaster strikes. 
Though each type of disaster requires different measures to keep pets 
safe, the ASPCA urges families to take the following general steps to 
prepare their pets should they be impacted by a disaster:
    <bullet>  First, if you must evacuate, take your pets with you. If 
it's not safe for you--it's not safe for your pets. Pets should not be 
left behind or tethered to trees. This will prevent them from escaping 
emergency situations and getting to safe areas.
    <bullet>  Second, make sure all pets are wearing ID tags with up-
to-date contact information. A pet's ID tag should contain his or her 
name, telephone number and any urgent medical needs. The ASPCA also 
recommends checking microchip registration information to ensure that 
contact information is up to date.
    <bullet>  Third, along with the emergency kit for human members of 
the family, we recommend creating a portable pet emergency kit with 
essential items including medical records, water, water bowls, pet 
food, leashes, and any required pet medications.
    <bullet>  Finally, it's important to choose a designated caregiver, 
such as a friend or relative outside the evacuation zone, who can take 
care of a pet in the event one is unable.
                               Conclusion
    With natural disasters occurring more frequently, preparedness has 
never been more important. The ASPCA urges Congress to continue its 
work to protect animals in need by passing the PREPARED Act and to 
explore the other measures discussed here today. Thank you very much 
for the opportunity to testify on this very important topic. I look 
forward to answering any questions that the members of the Subcommittee 
may have.

    Ms. Titus. Thank you, Mr. Patch. Thank you all again for 
your testimony. You are the experts, and you have given us some 
things that we can work on.
    We will now move on to Member questions. Each Member will 
be recognized for 5 minutes, and I will start by recognizing 
myself.
    I would like to start with you, Ms. MacPherson. You were 
talking about the challenges for your dogs going for training, 
for deployment, and for evaluation, and the problem with being 
on--airline travel. You are an elite first responder. You need 
to get there. Your dog is your team. Are there other places 
where you have experienced some challenges being with your dog, 
besides on the airlines? And do you have any specific 
suggestions that we might do, working with the airlines to 
solve this problem?
    Ms. MacPherson. Thank you----
    Ms. Titus. Because you are right, I have seen people carry 
a snake on a plane to say it is a support animal. It didn't 
give me much support, having that sitting near me, but, you 
know.
    Ms. MacPherson. Thank you for that question. Really, our 
main concern right now is the in-cabin airline travel. As far 
as restaurants or public locations, we are not that concerned 
about, because we try to be respectful. If they don't need to 
be there, we don't try to put them there.
    Hotels, though, hotels, that would be good to come under 
the service dog label, or--not their label, but our own label, 
but under that same category, so that we can--so we can lodge 
with our pets. Because sometimes, with our dogs, and on 
deployment, we are in hotels, and that can become problematic, 
just like the airline flying. It is, like, well, it is not 
really a service dog.
    Ms. Titus. That is what I was going to ask you. When you 
get to the scene of the disaster, where do you go with your 
dogs? I mean----
    Ms. MacPherson. Oh, lots of times we are in tents. 
Sometimes we are in a sleeping bag on a parking lot until we 
can get the tents up.
    But for many deployments, especially hurricanes, we are 
lodged in hotels, if it is possible.
    Ms. Titus. OK, thank you. Well, we will look at that 
definition, see if we can expand that.
    Mr. Patch, you mentioned in your last recommendation--and 
the ones you gave were really good, and some things that we can 
actually get done. I don't want to wait until we get a massive 
bill. If there are little pieces that we can make improvements 
on, that is the intent of this committee. But the need for 
adequate resources, I would ask all of you--Mr. Patch says we 
need more resources.
    Doctor, could you address that? What can FEMA be doing 
better, and what kind of resources do we need to enhance?
    Dr. Bissett. Well, I would start with the veterinary 
medical piece. And again, FEMA has this opportunity, and there 
are distinct differences between what teams like ours does and 
what the current inventory of response capabilities does from a 
veterinary medical perspective.
    And so we really need to push that because, you know, a key 
part of what we do is working with communities on preparedness. 
We are planners, as well as responders. My own personal 
opinion, I think you need to be both. And we do that down at 
the local level. And the reality is they struggle to have the 
expertise, many local jurisdictions, to develop animal-focused 
plans. And so it just makes the situation worse when something 
does happen, because there is not a good plan there.
    And so, having resources like ours that can play into that, 
I think, is critically important.
    Ms. Titus. Have you looked at the PREPARED Act that was 
mentioned that I have introduced to see if that kind of goes in 
the direction you are talking about?
    Dr. Bissett. It does. It does. And I think that--I know 
that there is a desire to have more accountability on 
information that is kept for animals by local jurisdictions. 
And that is so important, because the reality is we have--I 
think in many disasters we have animals wind up leaving the 
disaster area, and those victims don't have that opportunity to 
recover. It is typically household pets, but it could be 
livestock, as well.
    And so any provisions like that to tighten things up and to 
drive us to a more prepared society, I think, is a really good 
thing. And a team like ours can help toward that end.
    Ms. Titus. Dr. Meckes, North Carolina has got a good 
reputation for leaning in on planning. We appreciate that. I 
know that FEMA has, like, a field hospital that it can take to 
a disaster site. Do we need something like a field hospital for 
veterinary services similar to that?
    Dr. Meckes. During our most recent disasters, our Animal 
Welfare Section, our Emergency Programs Division, and our 
county animal control staff responded to all of the companion 
animal needs in a timely fashion, and we were able to move 
animals out of shelters that were in harm's way. We were able 
to bring resources to bear once the storm passed. And most of 
the animals ended up in shelters and with veterinary resources 
to care for them. So I am not certain that a hospital, as such, 
would be needed. If it were, it would be for a very short-term 
basis.
    With regards to the livestock side, which is what we have 
been so engaged with, in Matthew we met with FEMA the day after 
landfall. We had a feel for the impact, especially to our 
poultry industry, given the knowledge we have of the location 
of the landfall, and the location of our poultry farms. And 
FEMA stepped up and provided us funding to buy carbon source 
material to begin to compost these birds in short order.
    So--and in the subsequent Hurricane Florence, in which we 
had to respond, as well, we had really perfected some of our 
techniques, perfected our movement of product, movement of 
animals to make certain that we could do it in a timely 
fashion. So after Matthew it took almost 4 months for us to 
finish all the composting activities. After Florence it took us 
35 days and we got folks back in business.
    Ms. Titus. I am glad to hear you had a good relationship 
with FEMA, because that is part of the challenge, is getting 
the FEMA reimbursements after some of these problems to deal 
with the animals.
    Dr. Meckes. Yes.
    Ms. Titus. Mr. Meadows?
    Mr. Meadows. Dr. Meckes, I want to come back to the FEMA 
reimbursement side, because you mentioned that in your opening 
testimony. And obviously, sometimes the response, in terms of 
reimbursement, is either ambiguous or not at all.
    What would be the two things that you would recommend that 
we could do, in terms of reimbursement for this component of 
either livestock reimbursement or animal shelters?
    Obviously, if you have a number of household domestic pets 
that are being housed, there is an expense that goes along with 
that. Is that something that the counties just take on 
themselves? Does it get reimbursed? Or what could we do to 
improve that?
    Dr. Meckes. Well, with regards to the companion animals, 
the counties have taken that on themselves. And again, as I 
mentioned, our Animal Welfare Section, volunteers from 
different counties will move to those counties most profoundly 
affected.
    And we have not had to call upon FEMA for funds for 
managing of companion animals. We have gotten donations, we 
brought our colleagues from around the country to assist us. 
And any number of rescue groups are engaged, as well.
    With regards to reimbursement for livestock and poultry 
issues, some of the pieces have been well accepted. Our 
proposals have been well accepted by FEMA. Others less so. 
Persistence has been the key for us in receiving 
reimbursements.
    Mr. Meadows. All right. So how do we take the need for 
persistence right now, as you would delicately put it, and 
maybe change that into something that is a little bit better 
defined, that says, all right, if you hit this, then you 
qualify?
    Here is my concern, is county by county you have different 
budgets.
    Dr. Meckes. Right.
    Mr. Meadows. And, as you know, in the eastern part of the 
State some of those counties are well-equipped and well-funded 
to be able to loan the money.
    Dr. Meckes. Right.
    Mr. Meadows. Other counties have an extremely difficult 
time, especially when you are taxing with other issues that are 
not livestock-related.
    Dr. Meckes. Right.
    Mr. Meadows. So it could be, you know, search and rescue, 
it can be a number of other taxing--so how do we take that part 
where--what I don't want you to have to do is call the 
chairwoman or me and say, ``We are having a problem getting 
reimbursed from FEMA,'' if there is something that we can do, 
legislatively, to address that.
    Is that something that you could come up with two or three 
recommendations and get back to the committee on?
    Dr. Meckes. We can get back. I will say that it is all a 
matter of interpretation at the end of the day. We interpret 
some of the guidance from FEMA as meaning they will fully 
embrace our activities associated with response to livestock 
incidents. There is a gap there. USDA, obviously, has no piece 
of natural disasters, and responding to them.
    But, from our point of view, it is much better to get feed 
to animals and diesel fuel to farms to keep the animals alive 
than it is to buy a carbon source material to compost them 
after they are dead. And so----
    Mr. Meadows. Well, I would agree with that. And so I guess 
what I would say----
    Dr. Meckes. Clarity that we----
    Mr. Meadows. So on that clarity, if you could get with 
Commissioner Troxler and Mr. Sprayberry, and get a 
recommendation back to this committee, we would--I think there 
is a bipartisan support to do what is practical, and not make 
it ambiguous.
    Mr. Patch, let me come to you. One of the difficulties any 
time that you have displaced people is that you have displaced 
animals, as well. And I can tell you that--what I would ask for 
you is maybe get to this committee your recommendations on how 
we can address the difficulty of cohabitating with animals that 
are perhaps displaced. Because when you put people in an 
emergency shelter, it becomes, you know--my pet may not be as 
welcomed as some other domestic pets. And it is kind of like 
with children, you know, some of them are great, and some of 
them are not as great.
    [Laughter.]
    Mr. Meadows. And I--these are great, back here.
    So--and so my concern is what is acceptable for someone may 
not be acceptable for someone that--you are in a close confines 
with kids, and all kinds of other things.
    And so, if you could help us with some recommendations on 
what you think is ideal, and then maybe what is practical, if 
you could get the committee some recommendations there, knowing 
that what is maybe ideal is not achievable, but the next best 
thing, if you could do that for us, Mr. Patch.
    Mr. Patch. Sure, Congressman. We will get you those 
recommendations. I will say--I wanted to tell you I am from 
Greenville, North Carolina.
    Mr. Meadows. No, I know, and I tell you--I was going to--I 
was--I knew, when I introduced him, I actually--my staff had 
told me that, and I could say, ``Go Pirates,'' or go something, 
you know, that is there. So I am not sure if you are in G.K. 
Butterfield's district, or in Dr. Murphy's district. But 
regardless, on their behalf, welcome, as well.
    Mr. Patch. Thank you. Well, let me say, my mother lives in 
Morehead City, North Carolina, and I live here in DC, so I 
worry about her a lot. These storms that are affecting the 
coast of North Carolina have been tremendous, particularly in 
recent years.
    Some of the work that the ASPCA does is to move animals out 
of those shelters in those affected areas before the storms 
come, and free up the resources of the hard-working people that 
operate those shelters while the storms are happening, so that 
there is someplace for those animals to go.
    And as I mentioned in the testimony, I think greater 
flexibility is what you have heard from all of these witnesses 
today in times of disaster. And that is true for the 
cohabitated and colocated shelters.
    Mr. Meadows. I thank you.
    Mr. Patch. Thank you.
    Ms. Titus. Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam Chair. I have a 
special guest here with me today, Remy, because he is very 
interested in hearing from all of you this morning.
    This issue hits very close to me. I represent an area in 
south Florida where we are heavily impacted by storms. It seems 
like every summer, every year, we have to prepare for a 
hurricane. And I have two dogs at home, Kali and Spike, and 
they are part of our family. I have kids, also. And my kids and 
my dogs actually behave very well, Mr. Meadows. I don't know 
what you are----
    [Laughter.]
    Ms. Mucarsel-Powell. But----
    Mr. Meadows. I would expect nothing less.
    Ms. Mucarsel-Powell. So I just can't imagine leaving them 
behind.
    And it was so interesting to me to see that 44 percent of 
the people who didn't evacuate during Hurricane Katrina did so 
because they didn't want to leave their pets. And I know that 
this is even more of a reality for our seniors. So I don't want 
anyone in my district to have to make the decision of whether 
they leave, and leave their pet behind or not.
    So Mr. Patch, in your written testimony--I just wanted to 
start by asking--you outlined some ways that people can prepare 
to care for their pets. And I just want to--if you could 
briefly describe that for everyone that is listening right now 
at home, what people can do. And if you can, highlight those 
steps that people need----
    Mr. Patch. Sure.
    Ms. Mucarsel-Powell [continuing]. To take to prepare for a 
hurricane.
    Mr. Patch. Yes, ma'am. And in response to your observation 
about people staying behind with their pets, it is heroic that 
they stay behind to care for their pets, but it is a failure of 
proper planning. And part of that planning is ensuring that you 
are prepared to leave when it is necessary. And in a district 
like yours, where these storms seem to hit with tremendous 
force, it is important that anyone that lives in an area like 
that have their--have ID tags for their animals, and have their 
microchips updated, and that they have supplies for the 
animals, and that they have a plan. Where are they going to go? 
Who is going to take care of the animals? Who--can they keep 
the animals with them? Can they get on a bus, or a train, or a 
plane? Being prepared and knowing those things in advance is 
important.
    And back to the chairwoman's legislation, ensuring that 
commercial enterprises--zoos and research facilities and 
breeding operations--they know that these things could happen, 
and they should be prepared. And the title of your bill, they 
need to be prepared in advance.
    Ms. Mucarsel-Powell. We have one of the most beautiful zoos 
in the country in my district also, Zoo Miami. And I know that 
they do a really great job of preparing for hurricanes. Is it 
possible, since you are mentioning this again, that they can 
actually coordinate with vets in the area to actually also take 
in some of these pets?
    I just--I don't see that working as well. But if you can, 
provide some examples or ideas on that.
    Mr. Patch. I can't speak to that exact idea. I think--in 
response to your question, I think good zoos, good, accredited 
zoos are prepared. They have a disaster plan, and they are 
already--they are more prepared than many others. Whether or 
not they could help it, I think it depends on the events of 
that particular moment. But they should be prepared to provide 
that service, if it is possible, sure.
    Ms. Mucarsel-Powell. Thank you. And Dr. Bissett, like your 
emergency team at Texas A&M, the important work that they do to 
keep both animals and their owners safe--I am very proud of the 
similar work that we have in Florida by the University of 
Florida VETS Disaster Response Team. But unfortunately, there 
aren't enough people who are trained to take care of animals 
during disasters.
    In your testimony you demonstrate how emergency teams from 
colleges of veterinary medicine are so crucial to disaster 
responses. And I can't imagine trying to coordinate disaster 
response for people without public health professionals or 
hospital systems involved. So it seems like there should be 
veterinary professionals involved in animal disaster planning 
and response.
    Do you know of any available funding streams to strengthen 
training programs for veterinarians to be on the ground during 
disasters?
    Dr. Bissett. So I can tell you that has been a significant 
problem. Even with our team, we are the State's deployable 
veterinary medical resource, and yet we have had to survive and 
prepare primarily on donations. And donations wax and wane. And 
the challenges of maintaining a deployable unit with a constant 
level of readiness and a wildly fluctuating budget is a 
challenge.
    And you do have to be trained to go into these situations. 
Our team, which is made up of faculty, staff, and students from 
the college, as well as private practitioners, private 
veterinary medical professionals from around the State, we have 
aggressive training. We have monthly trainings. We have 
multiple exercises a year. And it is all geared toward making 
sure that we can go into a community, work with that community 
to perform a safe and effective response.
    Another thing that we do is very much work to enable that 
community. What we don't want to do is to go in, and then we 
are demobilized, and they have got issues. And so we try and 
leave a structure for that response to carry on as it winds 
down. And our history has been that most of those communities 
that we deployed to, we wind up going back to and helping them 
plan. And we become, you know, basically lifelong partners. All 
that takes a budget. That is a challenge.
    And I would just comment veterinarians are willing to 
volunteer. One of the things that we have seen, though, in 
Texas, where we have had so many things happen, is they will 
volunteer once. And then, the next time you have a 
conversation, it is, ``I can't afford that. I wasn't trained to 
be there. I am not going to do it again.'' And so having these 
structured teams, I think, are critically, critically 
important.
    Ms. Mucarsel-Powell. Thank you so much. I am out of time.
    Ms. Titus. Thank you. Just to follow up on that, do you 
ever get reimbursed by the communities you serve? And does that 
come through FEMA? Or maybe it should.
    Dr. Bissett. So we are--the way our State has us set up, we 
are an eligible applicant. And so we submit our reimbursement 
packages through the State to FEMA, just like the other State 
response assets. That is in the declared events. And so we do 
get reimbursed. On the smaller events, we typically don't. That 
comes from our donor base.
    Ms. Titus. Do you have any recommendations to make that 
reimbursement work better, just as we were asking?
    Dr. Bissett. So, in all honesty, I have had really positive 
experiences, but we also have a very aggressive accountability 
program.
    And I am just going to--in answering that question, and 
actually going back to something that Ranking Member Meadows 
asked about, was how do we make that reimbursement process 
better. Chief Kidd, our chief of the Texas Division of 
Emergency Management, one of the things that he has challenged 
our team with is making sure that we help local communities get 
to the point where they can--they have good accountability, 
good recordkeeping, so that those animal-based responses are 
indeed reimbursed. Because I can tell you in Texas, the opinion 
is that a lot of those expenses go uncaptured. And for a 
community that is reeling from the economic outflow that a 
disaster costs, that is all important.
    Ms. Titus. Thank you, Doctor.
    Ms. Norton.
    Ms. Norton. I have looked at your testimonies, Dr. Meckes 
and Dr. Bissett, where you discuss the integration of your 
organizations into emergency management disaster efforts, and 
that is very important to note that. But I am interested in the 
planning and preparation before the disaster occurs.
    So let me ask you what role, if any, does climate change 
play in your preparations? We are already seeing indications of 
that across the country.
    Dr. Bissett. Well, I can speak to Texas, and I know that--I 
mean, there is no denying that our weather cycles have become 
more severe. We are seeing flooding in places that we have 
never seen it before because of the weather patterns, because 
of land use. There are a number of issues coming together.
    And so it does take a more aggressive planning approach, as 
our climate does change, and our land use changes. You are 
going to have areas that now flood that used to not flood, 
either because of the rainfall or changes in drainage. In our 
2016 Brazos River flooding I talked with a rancher that was 
distraught. He had moved his cattle from the Brazos River 
bottom to the hurricane pasture. It was the one that had never 
flooded before, historically. He lost 200 head. They floated 
down the river.
    And so, as weather conditions get more severe, planning 
gets to be more aggressive. But whenever it comes to animals, 
most local governments don't think about the animal 
professionals that most local jurisdictions have: animal 
control officers, livestock officers. Many don't even have a 
veterinarian on staff. They have extension agents, which are 
amazing in our State, but it takes planning assistance. We have 
to have better plans as the problems become more severe. So it 
plays a huge role.
    Ms. Norton. I was surprised, Dr. Bissett, that your model 
is the only program of its type in the country. Are you working 
with other universities or other States in any way to replicate 
that model?
    Dr. Bissett. Yes. So we have. And I want to acknowledge 
some other programs that are very strong, as well. I know North 
Carolina State has a different model, where they teach 
emergency management that is successful. Florida, and their 
program, is successful, much smaller scale.
    But rotations like ours, where all of our students go 
through a program, we are the only type in the country. And I 
am proud that our university will have educated between 1,400 
and 1,500 senior vet students in this discipline by the end of 
this academic year.
    That is the answer, is getting more people prepared to go 
out around the State, around the country, and to help 
communities get where they need to get.
    Ms. Norton. Mr. Patch, do you think there need to be 
Federal requirements to track reunification of families and 
pets, that that would be helpful to the ASPCA's disaster relief 
efforts?
    If not, what would help in your efforts to reunite families 
with pets that get separated during a disaster?
    Mr. Patch. Sure. Thank you, Congresswoman. Much of the work 
of the ASPCA is done in advance of these storms. We take the 
animals out of the shelters that are in disaster areas so that 
those services are available for disaster victims, lost pets, 
pets that have become--that are not with their owners any 
longer have a place to go and to be safe.
    We are, obviously, for documentation. Animals that come 
into shelters should be properly documented, those that leave. 
And the better organized any shelter is, the more prepared they 
will be to be helpful in a time of crisis.
    Ms. Norton. So are there any systems to track where--so 
that a family would know where their pet was?
    Mr. Patch. It depends----
    Ms. Norton. By going online or by coming to some central 
location?
    Mr. Patch. No. I mean, disaster planning is at the very 
local level. And shelters operate in communities. And every 
community, every county, every State has different laws and 
regulations. Bigger counties have better--not always, but often 
have better organized systems and can address the needs that 
you have outlined.
    Ms. Norton. Madam Chair, I do think that there needs to be 
some kind of model for the States to know how to proceed with 
respect to pets that then could be disseminated, so you see how 
somebody did it, how Texas did it, or somebody did it, and you 
would know how to proceed. Because I am not sure this is on the 
minds of the average family, or a public official when they 
think about disasters.
    So this is an important--it is an important hearing, Madam 
Chair.
    Ms. Titus. Thank you very much. And we want to look at 
that. I think Virginia is--supposedly has a gold standard for 
an online reporting at the animal custody record online 
reporting system. I don't know if any other States have 
established that, or if we need to look at that program.
    Yes, Doctor?
    Dr. Bissett. So I know in Texas--and just to kind of give 
an example of how challenging the problem is, in many of the 
communities that we worked with in Hurricane Harvey, reunion 
rates were 75, 80 percent. One of the counties we worked with, 
their plan was actually to move their animals 90 miles away to 
a major city. That 90 miles was unbearable, and reunion rates 
were about 30 to 35 percent. So it is significant.
    So it starts at the local level. Good planning, good 
documentation. Fostering the ability to develop good plans at 
the local level is key.
    We have also--actually, I was in meetings right before I 
flew here. We have a similar program written into our plan, 
where counties that are impacted can provide information on the 
animals that were found. It goes into a database, up into a 
website, and it is going to become that centralized place for 
people that are missing animals to look.
    Now it is challenging. And I know, from the Camp wildfire--
and I am sure ASPCA has had the same experiences--you wind up 
having a lot of visits and it wasn't their animal, which is 
heartbreaking. But it is such a worthwhile task, because when 
you see that person and that animal reunited, it is such a 
remarkable thing.
    Ms. Titus. I can only imagine. Well, as we look at the 
PREPARED Act, and requiring local and State governments to be 
prepared, maybe part of that preparation is establishing a 
record where you can check--an online reporting system should 
be part of that plan.
    I wanted to ask you, Mr. Patch. You said your organization 
has a memorandum of understanding with various governments 
around the country. Is there anything that prohibits you from 
entering into those, or are there any problems, anything we can 
help to alleviate to make it simpler so that more communities 
or all communities have that kind of agreement with you?
    Mr. Patch. I don't know that we can handle all the 
communities.
    [Laughter.]
    Mr. Patch. I will check, Congresswoman. I know we have 
dozens, hundreds, perhaps, MOUs with cities, counties, States 
around the country.
    And in addition to--one of the questions you asked earlier, 
the ASPCA is one of the--is the number two grantmaking body in 
the United States. We have provided tens of millions, $150 
million or more in the last 10 years, not all for disasters, 
but at least in part, and spent a lot of money in helping to 
prepare in disasters.
    And that work is so important, and the work that all the 
people on the panel in preparing for disasters is so important. 
And this hearing, and putting the word out about your bill, 
which would do as much for animals as anything the Congress can 
do right now is so important. So thank you.
    Ms. Titus. Thank you. Well, thank all of you very much. I 
feel strongly about this, and I think we need to do something. 
But hearing what you all are doing is reassuring that there are 
things happening, we just don't know about it, and we need to 
coordinate it better, and use your example in other places.
    So I can assure you we are going to continue to push these 
issues. And any recommendations that you have for us, in terms 
of planning, or putting together a reporting system, or dealing 
with FEMA, we hope you will get them to the committee so we can 
move some kind of legislation.
    You know, it is not a disaster, but something that also 
speaks to the value of pets to families is we also have 
statistics that show that a person will not leave a domestic 
violence situation or a home where there is abuse if they can't 
take their pet with them. So it is not just in an emergency. 
That pet is a critical part of a family's life.
    So we very much appreciate what you are doing, and we will 
certainly stay in touch as we move this forward. Thank you.
    Any further questions?
    I guess we are it. So, seeing none, I would like to thank 
all of you again for your testimony. It has been very 
informative, very helpful.
    And I ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided any answers or recommendations that may be submitted 
to us in writing.
    I ask unanimous consent that the record remain open for 15 
days for any additional comments and information submitted by 
the Members or witnesses to be included in the record if you 
have anything additionally you would like for us to include.
    Without objection, so ordered.
    If nobody else has anything to add, we will stand 
adjourned.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you Chair Titus, and thank you to our witnesses for being 
here today.
    I'm very interested in this issue because animals are often 
overlooked when we think about emergency management and preparedness.
    I have a dog, Mandy, at home in Oregon and anyone who visits my 
personal office or the Committee knows that we have pet-friendly 
offices.
    Americans consider their pets to be part of their family. So, it's 
no wonder that such a large percentage of individuals who failed to 
evacuate during past disasters did so because they didn't want to leave 
their pets behind. During disasters, the well-being of Americans and 
their animals are inextricably linked.
    However, this hearing is not just about pets. Service animals and 
livestock have entirely different evacuation, sheltering, and feeding 
needs when a disaster occurs.
    Failure to properly account for farm animals during an emergency 
can have severe consequences, including economic losses and food 
insecurity for entire communities.
    Service animals generally have broad protections for sheltering and 
transportation in emergency situations. However, search and rescue 
canines are not guaranteed the same protections under Federal law.
    In the wake of Hurricane Katrina, this committee held several 
hearings to consider legislative proposals that would address the 
shortcomings in our national emergency preparedness framework. One of 
the pieces of legislation that came out of those hearings was the Pets 
Evacuation and Transportation Standards (PETS) Act.
    This bipartisan legislation was among the first to consider the 
well-being of animals during a disaster by requiring FEMA to ensure 
that State and local emergency preparedness plans address the needs of 
individuals with household pets and service animals following a major 
disaster or emergency.
    It's time we take another look at the gaps in emergency 
preparedness with respect to animals. For example, there is currently 
no federal requirement that facilities regulated by the Animal Welfare 
Act (AWA) have a plan to protect animals in their care during emergency 
situations.
    The PREPARED Act, introduced by Chair Titus, would require that AWA 
licensed facilities create, implement, and file contingency plans with 
the Department of Agriculture. Although the bill was not referred to 
this Committee, it highlights issues that are squarely within our 
jurisdiction.
    I support the Chair's legislation and hope we can use what we learn 
today as the basis for more protections for animals in the future.
    Thank you. I look forward to hearing testimony from our witnesses. 
I yield back.

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Titus, and thank you to our witnesses for being 
here today.
    As already noted, we're focusing today on challenges that 
communities face during disasters; in particular as it relates to 
animals.
    Many of you know that my district experienced historic flooding 
last year.
    This flooding impacted tens of thousands of acres of farmland and 
caused significant damage to homes, communities, and infrastructure.
    With so many constituents in my district reliant on farming, and 
growing up on a farm myself where I continue to have family who raise 
cattle, it is important that the well-being of livestock be a serious 
part of disaster relief and mitigation efforts. I look forward to 
learning more about state and federal plans to protect this vital part 
of the rural economy.
    Thank you, I yield back.

                                 <F-dash>
 Statement of the Consortium for Citizens with Disabilities Emergency 
   Management Task Force, Submitted for the Record by Hon. Dina Titus
    The Consortium for Citizens with Disabilities (CCD) Emergency 
Management Task Force submits the following statement for the record 
for the February 12, 2020, Subcommittee on Economic Development, Public 
Buildings and Emergency Preparedness hearing on the Welfare of Animals 
in Disasters. CCD is a coalition of more than 100 national disability 
rights, advocacy, consumer, provider and self-advocacy organizations 
representing this nation's 57 million people with disabilities. The 
Emergency Management Task Force concerns itself with disaster planning, 
preparedness, response and recovery issues affecting people with 
disabilities throughout the United States, its territories and Puerto 
Rico.
    The subcommittee heard from a panel of witnesses focusing on 
adverse impacts on people and communities that derive from failure to 
plan for the welfare of animals as well as recommendations for 
improving the response of emergency management systems to the 
protection and survival of animals in disasters. Of particular concern 
to the members of this task force are the effects that poor planning 
and implementation of disaster response can have on people with 
disabilities who rely on service animals or who may be adversely 
affected by well-intentioned policies for sheltering companion animals.
    Unfortunately, disaster response systems repeatedly fail to 
consider the needs of people with disabilities and their service 
animals in disasters despite laws like the Americans with Disabilities 
Act. Under the ADA, a service animal is defined as a dog that has been 
individually trained to do work or perform tasks for an individual with 
a disability. The task(s) performed by the dog must be directly related 
to the person's disability. As you know, that law requires all 
emergency shelters to accommodate people with disabilities in the most 
integrated setting, along with any service animal that accompanies 
them. Poorly trained emergency response personnel have refused to 
evacuate service animals, leading some people with disabilities to 
refuse to leave a dangerous living situation in the face of an oncoming 
storm. When they arrive at an emergency shelter, people with 
disabilities have been separated from the service animals that enable 
them to navigate independently. We trust that any legislative efforts 
to strengthen the training of emergency response personnel in managing 
animals in a disaster will include existing obligations to abide by the 
ADA.
    To be sure, there have also been occasions where states have 
stepped up to ensure that people who depend on service animals are able 
to keep the animals with them in emergency sheltering. In its report on 
the 2017 hurricanes aftermath in that state, The Storm After the Storm, 
Disability Rights of North Carolina described the value of shelters 
that accommodated survivors' service animals.
    One of the survivors there reported that having his dog with him 
and knowing he was well-cared for `meant the world' to him. In another 
shelter, a veteran with chronic PTSD said having his dog nearby (in a 
trailer behind his shelter) where he could visit with him daily helped 
him to manage his symptoms. In yet another shelter, a survivor was 
provided a separate room so they could be with and care for their dying 
dog.'' \1\
---------------------------------------------------------------------------
    \1\ Storm After the Storm, Disability Rights of North Carolina, 
https://disabilityrightsnc.org/wp-content/uploads/2019/02/DRNC-
Report_The-Storm-after-the-Storm-2.5.19.pdf
---------------------------------------------------------------------------
    Reference was made during the hearing to the PETS Act which 
requires that states and localities include in their disaster plans the 
needs of people with household pets and service animals. This law has 
obviously been of considerable comfort to many people faced with having 
to leave their homes in a natural disaster. However, unless managed 
properly, unintended consequences can result that violate the rights of 
people with disabilities in a disaster. That same report by Disability 
Rights of North Carolina highlighted the story of a mother of a 26-
year-old non-verbal young man with severe autism who was deeply afraid 
of dogs. Her son became aggressive and agitated when shelter staff 
``would not allow him, his mother and 27-year-old sister to stay in an 
area of the shelter away from service animals.'' In a previous shelter, 
staff had permitted the family to stay in a room separate from other 
survivors because of the son's sensory concerns. ``At the new shelter, 
the family was told they had to be grouped in a room with other people 
with disabilities, which she said was called `the disability room' '' 
that included two service animals.
    We ask the committee to ensure that the rights of people with 
disabilities are not inadvertently discounted in any legislation 
seeking to accommodate people with service and/or companion animals.
    Respectfully submitted on behalf of the task force.

                                   Erin Prangley, Co-Chair,
                                           Director, Policy,
                                           National Association of 
                                               Councils on 
                                               Developmental 
                                               Disabilities.
                                   Susan Prokop, Co-Chair,
                                           National Advocacy Director,
                                           Paralyzed Veterans of 
                                               America.

                                    
</pre></body></html>
